About The National Science Foundation...


The National Science Foundation (NSF) is charged with supporting and strengthening all
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.


About the Cover...


Cover Photo by Kenneth L. Busch.
                                                                                  Table of Contents
Audits and Reviews ............................................................................7
Ensuring Proper Stewardship of ARRA Funds ...................................................................7
Significant Grant Audits .......................................................................................................9
Labor Effort Reviews ..........................................................................................................11
Significant Contracts ...........................................................................................................14
A-133 Audits ........................................................................................................................15
Audit Resolution ..................................................................................................................18

Investigations ......................................................................................21
Research Misconduct ..........................................................................................................21
Administrative Investigations ...............................................................................................27
Civil and Criminal Investigations ..........................................................................................29

OIG Management Activities ................................................................31
Congressional Testimony ....................................................................................................31
Outreach ..............................................................................................................................31

Statistical Data.....................................................................................35

Appendix ..............................................................................................47
[Blank Page]
                From the Inspector General

This Semiannual Report to Congress highlights the activities of the National
Science Foundation Office of Inspector General for the six months ending
September 30, 2009. During this period, our office issued seven reports, five
of which contained more than $4.1 million of questioned costs. Our investigative
staff closed 30 civil/criminal investigations, 52 administrative investigations, and
recovered $662,162 for the government.

During the past six months, we have directed significant attention to challenges
facing NSF as it attempts to spend its Recovery Act funds expeditiously
while ensuring accountability and the achievement of the Act’s twin goals of
reinvestment and recovery. At the agency’s invitation, the OIG is participating
in several teams created to tackle Recovery Act implementation, allowing us to
raise issues for NSF’s consideration early in the process. We have proactively
provided the agency with our assessment of several key issues, including
high-risk programs and awardees that might receive Recovery Act funds, and
with quick reports to help inform NSF award decisions, including one which
detailed stakeholders’ expectations that Recovery Act awards will contribute
to both of the Act’s goals. This type of real-time collaboration is a new experi-
ence for both the OIG and NSF and has resulted in a better-informed and
more cooperative relationship that benefits both organizations. NSF has been
receptive to the suggestions we have made, and we plan to continue using this
approach. At the same time, we will ensure that our independent oversight role
is not compromised.

Among the significant audit findings detailed in this report are serious internal
control weaknesses at an institution that is currently managing approximately
$31million in 47 NSF grants. Four audits of labor-effort reporting systems, part
of a series of audits addressing this critical grants management issue at large
universities, found that those systems lacked adequate controls to ensure that
time claimed on the NSF awards was actually incurred and reported accurately.
As a result, the universities and NSF had little assurance that the $92 million
of labor charged to those awards represented actual work performed on NSF
research, and those funds remain at risk for improper and unallowable charges.
In addition, our review of 199 Single Audits covering NSF expenditures of more
than $4 billion during a three-year period documented numerous internal control
weaknesses in NSF awardees which could put federal funds at risk.

Our investigative work has also yielded significant results. Because it is essen-
tial to the integrity of research funded with taxpayer dollars that such projects
be carried out according to the highest ethical standards, we continue to
aggressively pursue research misconduct by NSF-funded researchers. During
this period, we recommended that NSF debar a doctoral student who falsified
data in a project involving NSF funding and a research professor who fabricated
and falsified data. I am pleased to report that NSF has taken significant steps
to address previously reported cases, and among other actions, debarred an
associate professor who committed plagiarism in seven NSF proposals that
resulted in awards of $420,000.
The agency has also taken major steps to address recommendations arising from employee
misconduct cases we reported in March 2009. Among other things, the NSF Director issued a
memorandum to all staff detailing the safeguards, training, and policies NSF has implemented
pertaining to inappropriate use of government computers. The memorandum made clear that
NSF has a zero tolerance policy for such misconduct and that it will strictly enforce this policy.
Resolving these cases required sustained interaction between my office and NSF. I look
forward to continued cooperation with the agency toward our mutual goal of eliminating such
misconduct from NSF’s workplace.

Finally, in August, the Director issued a memorandum reinforcing my office’s vital mission to
prevent and detect fraud, waste, and abuse and strongly stating his expectation that all NSF
personnel would fully cooperate with the OIG. The OIG strives to give the public and Congress
confidence that each dollar provided to NSF will be spent in the most effective and efficient
way possible. My staff could not perform this mission without the cooperation, information, and
support provided by their agency colleagues. We look forward to continuing this productive
partnership.
                                                 Report Highlights
•	 The OIG continued its proactive oversight of NSF’s Re-
   covery Act spending and issued three Alert Memoranda to
   NSF identifying potentially risky institutions that may receive
   ARRA funds; providing information about the goals Con-
   gress and OMB intended NSF to meet with its ARRA funds;
   and analyzing whether NSF adequately justified funding
   proposals approved prior to enactment of the Recovery Act
   with money intended to address specific new recovery and
   reinvestment goals.

•	 An audit at the Carnegie Institution of Washington found
   that as a result of continuing internal control weaknesses,
   the approximately $31 million awarded in NSF grants that
   the Institution is currently managing could be at risk of being
   misused.

•	 Audits evaluating whether universities’ internal controls are
   adequate to properly manage, account for, and monitor
   the more than $1.2 billion in salaries and wages provided
   by NSF annually found significant deficiencies in those
   controls. One university, which billed $16 million in labor
   charges to NSF and $49 million to other federal agencies
   in FY 2007 alone, had extensive unsupported labor cost
   transfers.

•	 A doctoral student demonstrated a pattern of purposeful
   data falsification. She purposefully falsified data and
   conclusions in 5 manuscripts citing NSF support, and
   persuaded an individual to manipulate data to cover up an
   earlier falsification.

•	 In response to OIG recommendations NSF debarred an
   associate professor for 18 months and took actions against
   several other PIs. The associate professor had plagiarized
   into seven NSF proposals resulting in awards of $420,000.

•	 In response to OIG management recommendations relating
   to employee misuse of government computers, NSF took
   several actions including installing internet filtering software;
   issuing a memorandum to all NSF making it clear that NSF
   has a zero tolerance policy for inappropriate use of govern-
   ment computers; removing two employees, and taking
   administrative action against several other employees.




                                                                       5
[Blank Page]
                                                                   Audits & Reviews
During this period we issued seven reports, of which five contained
more than $4.1 million of questioned costs. Further, our audit work
resulted in significant recommendations to improve NSF’s grant
and contract management; to strengthen controls over labor effort
reporting, and to help ensure that federal funds are spent properly.
We also continued to provide proactive oversight and timely feed-
back to NSF regarding use of its American Recovery and Reinvest-
ment (ARRA) funds. To this end, we issued three Alert Memoranda
focusing on specific ARRA issues.1

Specifically, we performed a review of a grant awardee with a
history of expenditure control weaknesses, completed four audits
in a series of audits of universities’ labor effort reporting systems,
and audited four large awards at another university. We continued
monitoring NSF’s competitive selection process for a contractor
to manage the United States Antarctic Program for the next 13.5
years and audited costs claimed under a polar program drilling
services contract.

Further, we reviewed 199 annual single audits of NSF awardees
and noted a substantial improvement in audit quality. Also, together
with NSF, we resolved all but six of the 25 recommendations in
the Management Letter that accompanied the FY 2008 financial
statement audit. Finally, we also worked with NSF management
to resolve all of the findings and recommendations in five of our
previously issued audits of NSF awardees.



Ensuring Proper Stewardship of ARRA Funds

The American Recovery and Reinvestment Act of 2009 provided
$3 billion to NSF, an approximate 50 percent increase over the
agency’s $6 billion FY 2009 annual appropriation. NSF has quickly
developed programs to make awards, established a methodology
for awarding stimulus funds, and produced policies and procedures
that include new award terms and conditions to specific ARRA
awards. Spending ARRA funds expeditiously while ensuring proper
stewardship of these funds is a government-wide challenge and a
challenge for NSF.                                                                             HIGHLIGHTS
                                                                                               Ensuring Proper Steward-
Therefore, we are directing significant attention to proactive and                              ship of ARRA Funds	       7
preventive activities to give NSF timely feedback on its ARRA                                  Significant Grant Audits	  9
                                                                                               Labor Effort Reviews	     11
                                                                                               Significant Contracts	    14
1
  An alert memorandum is a concise, real-time review of a specific NSF activity or operation   A-133 Audits	             15	
as it is being developed and/or implemented, to provide input on issues as they arise. An
                                                                                               Audit Resolution	         18
alert memorandum may also be issued during the course of an audit to notify NSF of matters
requiring more immediate attention.
                                                                                               7
Audits & Reviews


                   endeavors. For example, we monitored NSF’s creation of, and provided im-
                   mediate feedback, on its implementation of key ARRA requirements, including
                   developing agency spending plans and new terms and conditions for awards
                   made under the Act.

                   In the past six months, we issued three Alert Memoranda on ARRA issues to
                   NSF. The first memorandum identified institutions that may present additional
                   financial and programmatic risks if awarded ARRA funds. This memo included
                   information we had provided to the Recovery Accountability and Transparency
                   Board identifying high risk programs that could potentially receive ARRA funds.
                   We provided this assessment to help NSF ensure the appropriate use of ARRA
                   funds.

                   The purpose of the second memorandum was to provide NSF with information
                   about stakeholders’ expectations with regard to its use of Recovery Act funds
                   to meet the Act’s goals. To determine those expectations, we interviewed staff
                   at OMB, OSTP, and in Congress. Based on those interviews, it was clear that
                   although stakeholders expected that NSF’s primary contribution would be in
                   the area of reinvestment, it was also clear that they expected that NSF would
                   contribute to the goal of recovery by making awards that created jobs.

                   The third memorandum analyzed NSF’s spending of ARRA funds for “in-house”
                   proposals. These are highly-rated proposals NSF had on hand at the time
                   ARRA was enacted and account for approximately two-thirds of NSF’s total
                   ARRA spending. We advised NSF that it needs to document the rationale
                   for its decision to use ARRA funds on an award-by-award basis. Further, we
                   noted that NSF needs to provide guidance for its program officers and grants
                   officials to ensure that they understand how they should monitor the rate at
                   which awardees are spending ARRA funds, as well as how they should respond
                   to awardees’ questions relating to their ARRA reporting requirements. Finally,
                   as a follow up to our assessment of potentially risky programs and awardees,
                   we requested that NSF provide us with information on its current and planned
                   actions to mitigate the potential increased risks of particular programs and
                   institutions receiving ARRA funds.

                   During this period, we also worked with the Inspector General community on
                   two government-wide ARRA reviews. The first was a self-assessment that
                   agencies completed regarding whether they have sufficient qualified grant and
                   contracting staff to adequately handle ARRA work. We provided the results
                   of NSF’s assessment to the Recovery Accountability and Transparency Board
                   and are preparing a report to advise NSF of our assessment of the survey
                   responses. In the second Board review, which is ongoing, we are evaluating
                   whether NSF has developed processes and controls to assess data quality of
                   the quarterly recipient reports. The IG community also has new requirements
                   for reporting our activities and how we are spending our ARRA appropriation.
                   We are working with the IG community to fulfill these reporting responsibilities
                   and provide the greatest amount of transparency possible to the American
                   people.

                   In the next reporting period, we plan to audit selected ARRA awards and
                   evaluate NSF’s post-award oversight activities related to the Act. Among other
                   things, we plan to conduct financial capability reviews of selected ARRA recipi-

              8
                                                             OIG Semiannual Report    September 2009


ents to ensure they have the ability to manage these funds. In addition, we are
ready to address any concerns raised by the public under the Act’s provision for
Inspector General reviews, as well as any complaints we might receive owing to
the Act’s expanded whistleblower protections.


Significant Grant Audits
Inadequate Internal Controls Remain Despite Institution’s History of
Grant Management Problems

We conducted an internal control review to determine if Carnegie Institution of
Washington (CIW) had strengthened its internal controls after four employees
were convicted of embezzling over $532,222, including approximately $200,000
from NSF awards between 1994 and 2006. We found that a number of serious
internal control weaknesses remained, although in 2004 CIW’s independent
auditors had recommended that CIW strengthen its financial management
process. As a result of continuing internal control weaknesses, the approxi-
mately $31 million in 47 NSF grants that CIW is currently managing could be at
risk of being embezzled or misused.

CIW developed a corrective action plan in response to its auditor’s 2004 internal
control report, but the plan did not fully address all of that report’s recommenda-
tions. Further, CIW developed institution-wide financial and administrative
policies and procedures for federal awards, but they did not provide adequate
or sufficient guidance in areas such as grant monitoring practices, segregation
of duties, controls over disbursements, journal entries, and proper handling
of cash receipts. Moreover, none of the seven CIW departments adequately
implemented these new policies and procedures.

For example, four Directors of CIW departments did not effectively monitor their
business office activity which should include routinely meeting with the business
managers to discuss grant project budgets and expenditures, review monthly
credit card statements, and assess overall federal grant activity. In addition,
one CIW department did not have a business manager to monitor Principal
Investigator grant activity. Continuous monitoring by a business or department
manager can help prevent and timely detect embezzlement schemes, such as
falsifying time and effort reports, converting property purchased with NSF award
funds to personal use, and fabricating invoices and receipts for purchases to
make them appear award-related.

CIW departments also either did not have or did not follow adequate written
journal entry procedures to ensure that cost transfers to NSF awards for
purchases, labor, materials and supplies were appropriate and had adequate
supporting documentation, explanation of purpose and evidence of supervisory
review and approval. As a result, the review found unapproved, undocumented
and inappropriate cost transfers, using journal entries that inappropriately
shifted costs from other grants and sources to NSF grants. Moreover, CIW
continued to have poor segregation of duties and controls over its disbursement
process. A single individual could enter and post invoices, print checks and
access the blank-check stock.

                                                                                      9
Audits & Reviews


                   Due to the significant nature of the internal control deficiencies identified and
                   to prevent future embezzlements, we recommended that CIW develop and
                   implement the systems, policies, procedures, and plans needed to address all
                   of its internal control weaknesses. In its response, CIW indicated that since our
                   fieldwork was completed, it has made significant improvements to its policies,
                   procedures, and financial practices, including installing a new accounting and
                   administrative system. The actions CIW described, if implemented, should
                   address our concerns.

                   Significant Compliance and Internal Control Deficiencies at
                   University of Michigan Lead to $1.6 Million of Questioned Costs

                   An audit of four awards to the University of Michigan with $57.7 million in direct
                   costs and $16.6 million in cost sharing found significant compliance and internal
                   control deficiencies in the University’s financial management of its NSF grant
                   funds that resulted in $1.6 million of questioned direct costs and more than
                   $136,000 of at-risk cost sharing.2 The University of Michigan has 565 active
                   NSF awards totaling more than $290 million. Our audit encompassed four large
                   center awards3 at Michigan which totaled nearly $60 million and represented 20
                   percent of Michigan’s funding from NSF.

                   We found that the University could not provide source documentation to support
                   $1.4 million in salary, internal charges from University service centers, and
                   other NSF award costs. This occurred because the University’s policies did
                   not clearly identify the types of documentation that should be maintained to
                   meet federal requirements and its coding and filing system made locating the
                   documentation difficult.

                   The audit also found that award costs charged to NSF were not reviewed until
                   the end of the award period which was usually years after costs were incurred
                   and charged to NSF. Due to this significant time lag and the University’s inef-
                   fective record retention system, the University was often unable to locate the
                   necessary documents to conduct an appropriate review of costs charged to the
                   NSF awards. Our audit questioned more than $61,000 of improper costs for
                   alcohol, salary for a terminated employee, and unrelated scholarship/fellowship
                   aid and stipends claimed under the NSF awards. In addition, the University
                   lacked procedures for overseeing and enforcing labor certification and effort
                   reporting policies and had certified 37 effort reports totaling more than $130,000
                   prior to the time the staff performed the research effort.

                   To address these compliance and internal control deficiencies, we recom-
                   mended that the University develop policies and procedures to specify source
                   documentation that should be maintained for each major category of federal
                   grant costs; amend its record retention system to ensure that documentation
                   to support charges to NSF grants can be readily obtained; and ensure that a
                   comprehensive review of NSF award charges is performed at least annually.

                   2
                     “At risk” cost sharing is the amount of required cost sharing that, at the time of the audit, the awardee had
                   not provided but had time to meet before the award’s expiration date.
                   3
                     NSF Center awards are generally large, interdisciplinary research awards of a scope, scale and complexity
                   beyond the resources of any individual investigator or small group and involve collaborations among research
                   groups at one or more locations.


             10
                                                              OIG Semiannual Report    September 2009


Further, we recommended that the University monitor and enforce its labor
certification and effort reporting policies.

The University of Michigan disagreed with the audit findings and recommenda-
tions and asserted that its policies and procedures were adequate.



Labor Effort Reviews Continuing at Universities
The OIG has been conducting a series of audits to evaluate whether universi-
ties’ internal controls are adequate to properly manage, account for, and monitor
salary and wage costs; and to determine whether these costs are allowable in
accordance with federal costs principles. It is critical for these systems to be
sound because NSF annually provides more than $1.2 billion, approximately
one-third of all NSF funds to universities for salaries and wages. Further, this
figure is expected to grow as the ARRA increases NSF’s funding of grants.

We completed four audits of universities with significant NSF and federal fund-
ing during this reporting period. These audits identified key weaknesses with
time and effort documentation, transfers of labor costs between awards without
explanation or approval, and certification and accuracy of labor effort reports
supporting approximately $81 million of research salaries charged to NSF
awards.

Georgia Tech Needs to Improve its Labor Effort Reporting

An audit at the Georgia Institute of Technology (Georgia Tech) determined that
it had a labor effort reporting system that could track and account for claimed
labor-effort costs, but we found material weaknesses in controls for justifying
and approving after the fact transfers of labor costs between federal awards.
The extensive number and amount of unsupported labor cost transfers raises
serious questions about the reliability of the University’s entire effort reporting
system. Consequently, any improper charges to NSF and other federal awards
may not be detected. Since Georgia Tech billed $16 million in labor charges to
NSF and $49 million to other federal agencies in FY 2007 alone, it is critical for
its labor-effort reports to be reliable.

The audit also revealed that Georgia Tech lacked policies and procedures to
comply with a federal grant requirement to track and account for labor effort
voluntarily provided to the research project as cost sharing. Accounting for
voluntarily committed cost sharing is important to ensure the University’s indirect
cost rate calculation is accurate and does not result in overcharging the NSF
award. Further, Georgia Tech’s policy did not incorporate NSF’s requirement
that limits PI summer salary to two months. Without this limitation in its policy,
Georgia Tech could charge excess salaries to NSF.

We made several recommendations to address the control weaknesses we
identified including that Georgia Tech require written justification and approval of
changes to monthly workload allocation reports and labor cost transfers, require
follow-up on inadequately justified labor cost transfers between awards and
ensuring proper training and oversight of these activities, and develop policies

                                                                                       11
Audits & Reviews


                   to limit charges to NSF sponsored projects to two months of faculty members’
                   base pay in any calendar year. The University agreed with the recommenda-
                   tions.

                   Cornell Not Using a Suitable Means of Validating Labor Charged to NSF
                   Grants

                   Our audit of Cornell University’s labor effort reporting system found that employ-
                   ees did not comply with federal regulations when they certified effort reports
                   without having first-hand knowledge or a suitable means of verifying that the
                   work was performed and the work benefited the NSF awards. Specifically, of-
                   ficials who were not in a position to know whether work was performed, certified
                   eight of the 30 employees’ effort reports we sampled, representing $208,000 (19
                   percent) of the salaries reviewed This same weakness had been identified by
                   Cornell’s internal audit group two years earlier.

                   The significant nature of this control weakness, coupled with the University’s
                   delay in acting on its internal auditors’ recommendations, raises concerns about
                   the reasonableness and allowability of the remaining $38 million of Cornell’s FY
                   2007 labor charges to NSF grants, as well as the reliability of the labor costs
                   claimed on its other $262 million of federal awards.

                   These weaknesses occurred because prior to FY 2008, Cornell did not define in
                   its policies what constituted a suitable means of verifying labor effort or estab-
                   lish adequate internal controls to provide effective management and oversight of
                   its labor effort reporting system.

                   We recommended that Cornell revise its policies to address the weakness
                   we identified including defining what constitutes suitable means of verification,
                   requiring certification by employees with first hand knowledge or certifiers with
                   documented suitable means of verification, periodically training all employees
                   involved in the effort reporting process, and holding certifying officials account-
                   able for following certification policies and procedures.

                   The University generally concurred with our recommendations and agreed to
                   implement the necessary changes to its policies and procedures by December
                   31, 2009.

                   Arizona State Needs to Ensure Reasonableness of NSF Labor Charges

                   An audit of Arizona State University’s (ASU) labor effort reporting system found
                   that ASU did not ensure that salaries and wages charged to NSF awards reason-
                   ably reflected actual work performed on the sponsored projects. Specifically, four
                   of the 30 sampled employees charged labor costs to NSF grants for work that
                   did not directly benefit any of the NSF grants, and two other sampled employees’
                   salaries were allocated to NSF awards using annual base salaries that exceeded
                   the amount recorded on appointment letters or employment contracts. As a
                   result, ASU overcharged NSF $29,700 for six employees.

                   Further, the audit disclosed late, missing or undated certifications on 50 of 67 (75
                   percent) effort reports, and certifications without first-hand knowledge or suitable
                   means of verification in six instances. In addition, ASU had not performed a

             12
                                                                OIG Semiannual Report      September 2009


mandatory comprehensive independent internal evaluation of its effort reporting
system to ensure the system complied with federal requirements. Because of
these weaknesses, NSF has less assurance that ASU labor costs, which for FY
2007 totaled $11.7 and $40.6 million for NSF and other federal agencies respec-
tively, are supportable.

Recommendations to address these weaknesses included developing improved
policies and procedures, mandatory training for all responsible research and ad-
ministrative personnel and independent evaluations of the labor effort reporting
system. ASU concurred with the recommendations and agreed to make the nec-
essary changes to policies and procedures. ASU also implemented an electronic
effort reporting system, which should further facilitate its ability to monitor effort
reporting.

Purdue University Needs to Strengthen Controls over Charging Labor on
NSF Grants

Our audit of Purdue University’s labor effort reporting found that overall the
University had adequate systems to ensure that the time charged to an NSF
award represented the actual time spent on that award. However, our sample
of 30 employees who charged $850,711 in labor costs to NSF grants identified
over $12,000 in charges that were not allowable or did not benefit the NSF
grant. While the amount of these overcharges was not materially significant
relative to the total amount of sampled labor costs, these excess costs indicate
that Purdue has an internal control weakness that could result in improper
charges on NSF or other federal awards.

Specifically, three Principal Investigators and two graduate students violated
both federal and Purdue University policies when they charged proposal writing
and teaching activities as direct costs to NSF grants. The internal control
weakness occurred because Purdue University did not have a system in place
to ensure adequate monitoring and periodic independent internal evaluation
of the effort reporting system. Also, Purdue did not ensure that all cognizant
personnel received adequate training on their effort reporting requirements and
responsibilities. Purdue University limited its formal effort reporting training to
its business office staff and did not include the Principal Investigators.

We made several recommendations, including that Purdue improve training for all
personnel involved in the effort reporting process and that the university establish
an independent internal evaluation process. Purdue generally agreed with the
recommendations. While Purdue University plans to continue its established
practice of formally training only its business office staff, it will include additional
steps to emphasize effort reporting issues related to proposal writing and gradu-
ate student teaching.




                                                                                           13
Audits & Reviews


                   Significant Contracts
                   OIG Continues Monitoring NSF’s Antarctic Support Contract
                   Competition

                   NSF is in the process of selecting a contractor to manage the United States
                   Antarctic Program for the next 13.5 years. The current contract is NSF’s largest
                   and is valued at approximately $1.6 billion over ten years. As part of the selec-
                   tion process, NSF requested that the Defense Contract Audit Agency provide
                   cost proposals to conduct audits for each offeror but plans to conduct audits at
                   only the offerors determined to be within the competitive range.
                   We issued an Alert Memorandum to NSF expressing concerns about what
                   the request covered. There are specific areas of the proposals that the audits
                   should cover, including indirect cost and overhead rates, business and financial
                   systems, and cost accounting practices. Audits of these areas are important
                   to develop a reasonably adequate cost analysis methodology and provide
                   confidence that all major costs are known, disclosed, and considered as part
                   of the award decision, including those that may not be readily apparent at the
                   time of the proposal submission. This is particularly true for proposals from
                   new business entities that do not have existing Cost Accounting Standards
                   disclosure statements that have been determined to be adequate by a govern-
                   ment agency. It is also very important that NSF audit the adequacy of offerors’
                   business and financial systems to determine if they are capable of ensuring that
                   government funds under the resulting contract are properly allocated and billed
                   to the benefiting agency contract.

                   In addition to the Alert Memorandum, given the magnitude and complexity of
                   this procurement, we have monitored NSF’s competitive acquisition process,
                   providing periodic comments and suggestions to advise NSF on the process
                   used to select a contractor that can properly account for costs and bill in accor-
                   dance with federal requirements. We will also continue to provide an indepen-
                   dent perspective on NSF’s acquisition process and assist NSF in identifying and
                   avoiding possible contract administration challenges and problems.

                   Polar Program Drilling Services Contract Overrun by $788,000 and
                   Auditors Question $2 Million in Costs
                    
                   In response to an NSF request, our audit of $19 million in costs claimed by the
                   University of Wisconsin under NSF’s Ice Coring and Drilling Services (ICDS)
                   contract found that that the university did not follow contractual requirements to
                   notify NSF of potential cost overruns and claimed $788,255 over the contract
                   ceiling amount through 2007. Specifically, ICDS did not follow contract require-
                   ments when it failed to notify NSF of increased costs it began experiencing in
                   2006 and had reached 75 percent of its contract ceiling. As a result, NSF had
                   less opportunity to manage the increase in costs of the drill or to mitigate the
                   impact of the cost overruns of the drill development and testing.

                   The audit also noted several internal control weaknesses in UW’s contract
                   administration and identified other instances where UW did not fully comply with
                   all terms and conditions of the NSF contract. Specifically, UW requested, but
                   did not obtain NSF approval, for its subcontracts and for equipment purchases


             14
                                                                                OIG Semiannual Report      September 2009


exceeding 5 percent of the total contract value, as required by the contract and
Federal Acquisition Regulation. As a result, the audit questioned $2.4 million
(13 percent) of the costs claimed for unapproved subcontract, equipment, and
associated indirect costs. In addition, the audit noted that equipment inventory
reports sent to NSF were not complete and travel records were destroyed
prematurely, contrary to UW’s record retention policy.

We recommended that NSF consider these findings in its review of UW’s re-
quest for equitable adjustment for the increased costs. We also recommended
that NSF require UW to implement a system to monitor and manage costs under
the NSF award; timely notify NSF, as required, when it is reaching its contract
ceiling; and obtain NSF Contracting Officer approval and consent to enter
into subcontracts. Further, we recommended that NSF require UW to submit
complete and accurate inventory reports, to verify the existence and accuracy of
inventory, and improve controls over record retention.

The university generally agreed with the recommendations, but submitted
documentation to show requests for approval from NSF for at least 26 subcon-
tracts to provide services and equipment. NSF responded just once to UW’s
requests, approving only four subcontracts. UW stated that it subsequently
relied on its quarterly progress and financial reports to meet NSF’s subcontract
approval requirement since NSF had not responded to its requests. Therefore,
we issued an Alert Memorandum to NSF recommending that the agency follow
its current policies and procedures for monitoring subcontracting activities that
require Contracting Officer approval. Further, the memorandum recommended
that NSF monitor contract costs, by comparing budgeted costs in the annual
program plans to actual costs in invoices, to better manage potential cost
overruns


A-133 Audits

Single Audits Continue to Identify Lack of Controls over Federal
Funds and Noncompliance with Federal Requirements

For the 199 audit reports reviewed and referred to NSF’s Cost Analysis and Au-
dit Resolution (CAAR) Branch this period,4 covering NSF expenditures of more
than $4 billion during audit years 2005 through 2008, the auditors identified 120
findings at 72 NSF awardees. Five awardees received qualified opinions on
their financial statements and eight had adverse or qualified opinions on their
compliance with federal grant requirements.

The auditors identified material weaknesses and/or significant deficiencies in
43 reports (60 percent of reports with findings), indicating substantial concerns
about the awardees’ ability to manage NSF funds. Awardees’ lack of internal
controls and noncompliance with federal requirements included: untimely and/or
incorrect reporting of time and effort; inadequate support for salary/wages,


4
  We reviewed four additional reports but rejected them due to audit quality issues. Once we receive the
revised reports, we will review them, and if acceptable, refer them to NSF for resolution.


                                                                                                           15
Audits & Reviews



                      OMB Circular A-133 provides audit requirements for state and local
                     governments, colleges and universities, and non-profit organizations
                     receiving federal awards. Under this Circular, covered entities that expend
                     $500,000 or more a year in federal awards are required to obtain an annual
                     organization-wide audit that includes the entity’s financial statements and
                     compliance with federal award requirements. Non-federal auditors, such
                     as public accounting firms and state auditors, conduct these single audits.
                     The OIG reviews the resulting audit reports for findings and questioned
                     costs related to NSF awards, and to ensure that the reports comply with the
                     requirements of OMB Circular A‑133.


                   equipment, travel, and indirect costs charged to awards; inadequate monitoring
                   of subrecipients; inability to prepare the financial statements; and late financial
                   and/or progress reports.

                   The auditors identified 60 instances where awardees failed to comply with fed-
                   eral requirements. Nine of these resulted in more than $587,000 in questioned
                   costs for NSF awards. Auditors also identified 60 instances where inadequate
                   internal controls could lead to future instances of noncompliance.

                   We also examined 97 management letters accompanying the A-133 audit
                   reports and found 56 deficiencies that affected NSF. Auditors issue these
                   letters to identify internal control deficiencies that are not significant enough to
                   include in the audit report, but which could become more serious over time if
                   not addressed. The deficiencies included inadequate tracking, managing, and
                   accounting for NSF costs, and ineffective segregation of duties. These deficien-
                   cies affected control processes that are essential to ensuring stewardship of
                   NSF funds and preventing fraud and abuse.

                   We provided the results of each audit report to NSF and, where appropriate,
                   highlighted our concerns related to opinions or findings. In certain instances,
                   such as reports which contained significant deficiencies or material weaknesses
                   repeated for three or more consecutive years and/or reports which identified
                   $100,000 or more in questioned costs to NSF awards, we requested that NSF
                   coordinate with us during the audit resolution process. Although A-133 does
                   not specifically require NSF to coordinate management decisions on systemic
                   findings when another agency is the cognizant or oversight agency for audit, it
                   does require NSF to issue management decisions on findings which impact its
                   funding. As such, we believe it prudent to bring these issues to the attention
                   of NSF officials and to monitor the actions taken by NSF to improve controls in
                   place at the awardee level. We expect that part of the actions taken by NSF
                   during resolution of these audits would include discussions with the cognizant/
                   oversight agencies for audit to determine what, if any, additional actions NSF
                   should take regarding its awards.

                   NSF coordinated with us as requested prior to completing resolution of eight
                   reports, but completed resolution of two reports without coordinating with us.
                   NSF contacted the cognizant agency during resolution for one of the ten audits.
                   In addition, in two reports, NSF considered the findings resolved even though



             16
                                                                                 OIG Semiannual Report        September 2009


the subsequent year’s audits identif ed repeat f ndings. We plan to work with
NSF off cials to formalize an agreement on the process for resolving recom-
mendations for A-133 reports for which we have requested coordination.

Timeliness and Quality of Single Audits Improves, But Deficiencies
Remain

The audit f ndings in A-133 reports are useful to NSF in planning site visits
and other post-award monitoring. Because of the importance of A-133 reports
to this oversight process, the OIG reviews all reports for which NSF is the
cognizant or oversight agency for audit, and provides guidance to awardees and
auditors for the improvement of audit quality in future reports. In addition, OIG
returns reports that are deemed inadequate to the awardees to work with the
audit f rms to take corrective action.
We reviewed 108 audit reports for which NSF was the cognizant or oversight
agency for audit,5 and found that 53 (49 percent) fully met federal reporting
requirements. This is a substantial improvement in quality over prior semiannual
periods. For example, in March 2007 only 9 reports fully met the requirements.

Key factors which contributed to the improvements include actions taken by the
auditor community as a whole in response to the National Single Audit Quality
Project issued in June 20076 and actions taken by individual auditors and
auditees in response to our increased monitoring of audit quality and outreach
efforts over the past 3 years.

Although improvements in timeliness and quality were signif cant, 55 reports (51
percent) reviewed had timeliness and quality issues. Audit quality issues identi-
f ed included 37 reports (34 percent), in which the Schedule of Expenditures of
Federal Awards did not provide suff cient information to allow for identif cation of
awards received from non-federal “pass-through” entities or did not adequately
describe the signif cant accounting policies used to prepare the schedule. In
addition, there were 24 reviews (22 percent) which contained quality issues that
had been previously identif ed for the same awardees and auditors.

We contacted the auditors and awardees, as appropriate, for explanations of
each of the potential errors. In most cases, the auditors and awardees either
provided adequate explanations and/or additional information to demonstrate
compliance with federal reporting requirements, or the error did not materially
affect the results of the audit. However, we rejected four reports due to substan-
tial non-compliance with federal reporting requirements. We issued a letter to
each auditor and awardee informing them of the results of our review and the
specif c issues on which to work during future audits to improve the quality and
reliability of the report.

We previously reported on our special review of reports under NSF oversight
without any identif ed audit f ndings (the “Oversight Project”).7 The review
continued to demonstrate that monitoring of reports without audit f ndings is

5
  The “cognizant or oversight agency for audit” is def ned as the federal agency which provided the largest
amount of direct funding to an awardee.
6
  Previously reported in September 2007 Semiannual Report, p. 17.
7
  March 2009 Semiannual Report, pp. 22-23.


                                                                                                              17
Audits & Reviews


                   as necessary as monitoring of reports with audit f ndings. Of the 55 reports
                   we reviewed with quality issues, 33 (including 3 of the 4 rejected reports) were
                   identif ed through the Oversight Project. Starting with the audits of f scal years
                   ending in 2008, the Federal Audit Clearinghouse will automatically provide us
                   with all reports under NSF cognizance or oversight.

                   Continued Efforts in Response to National Single Audit Sampling
                   Project and Recovery Act

                   We previously reported on ongoing efforts to improve the quality and oversight
                   of single audits in response to the recommendations of the National Single
                   Audit Sampling Project and on our participation in OMB workgroups to address
                   some of the f ndings.8 We continue to work with OMB to revise the Council of
                   Inspectors General on Integrity and Eff ciency standards for conducting quality
                   control reviews and desk reviews. We are also working with OMB to address
                   the impact of ARRA on single audits. This group is developing a pilot program
                   for early reporting of internal control def ciencies identif ed during single audits
                   at the state level.



                   Audit Resolution
                   Some FY 2008 Management Letter Recommendations Remain
                   Unresolved

                   In the March 2009 Semiannual Report,9 we reported that the Management
                   Letter resulting from the audit of NSF’s FY 2008 f nancial statements included
                   f ndings in grants processing and documentation, contract monitoring, and re-
                   porting of property, plant, and equipment. Management’s initial corrective action
                   plan, dated April 2009, included plans to resolve 17 of the 25 recommendations.
                   Management’s revised corrective action plan, dated August 2009, resolves an
                   additional two recommendations. Four of the six remaining unresolved recom-
                   mendations relate to grants monitoring. They include a recommendation to
                   review supporting source documentation before approving payments to problem
                   institutions placed on special payments, and a repeated recommendation from
                   the prior year for NSF to require staff to document review steps and results of its
                   assessments of institutions with high risk awards. A contract monitoring recom-
                   mendation that is unresolved is to expand the scope of the quarterly expenditure
                   review (QER) procedures of NSF’s high risk contractors to include verifying that
                   the amounts recorded in the contractor’s general ledger represent costs that
                   are allowable and benef tted the NSF contract. NSF management stated that
                   it plans to consult with the Defense Contract Audit Agency to determine the
                   exact scope of the current QERs and what additional procedures are needed.
                   Until NSF determines the detailed procedures, this recommendation remains
                   unresolved.




                   8
                      September 2008 Semiannual Report, pp. 21-22; March 2009 Semiannual Report, p. 23.
                   9
                      March 2009 Semiannual Report, p.14.
                   10
                      March 2009 Semiannual Report, p 20.


             18
                                                               OIG Semiannual Report     September 2009


We are continuing to work with NSF to develop acceptable corrective action
plans for the unresolved recommendations. During the ongoing audit of the FY
2009 f nancial statements, the auditors are also evaluating the effectiveness of
NSF’s implementation of corrective action plans for previously resolved recom-
mendations.

NSF Will Continue to Monitor Bermuda Institute of Ocean Sciences

In response to our March 200910 report on the f nancial capability of the Ber-
muda Institute of Ocean Sciences (BIOS), NSF has stated that it will continue
to monitor the institute’s f nancial position by reviewing the f nancial statements
that BIOS submits to the agency. We conducted the audit to report on the effect
of BIOS’ major expansion in its research programs.

University of Arizona Corrects Internal Control Weaknesses

The University of Arizona has corrected all the internal control weaknesses
we identif ed in the audit we reported in the March 2009 Semiannual Report.
Arizona took a number of actions including updating its policies and procedures
to better document its review and approval of labor cost charges by personnel
having a “suitable means of verif cation,” and requiring all off cials involved in the
effort reporting process to receive periodic training. In addition, the University
aligned its supplemental compensation guidelines with NSF’s summer salary
limitations.

Further, the University hired a Financial Compliance Coordinator to monitor the
effort report certif cation process and requested its internal audit department to
conduct periodic independent evaluations. The University plans to update its
f nancial management system so that it can track commitments for direct and
cost shared labor time to ensure that proposed labor effort commitments are
met. Arizona also updated its Handbook for Principal Investigators to ensure
that some faculty effort is committed to all sponsored projects. The audit ques-
tioned and NSF subsequently sustained $16,584, which the University removed
from the NSF grants before the audit was f nalized.

NSF Sustains $346,733 in Questioned Costs at American Institute of
Physics

In the March 2009 Semiannual Report,11 we reported that an audit of the Ameri-
can Institute of Physics (AIP) found signif cant internal control def ciencies and
non-compliance with federal requirements in its subcontract procurement and
management practices. The audit also identif ed $77,658 in questioned costs
that include $25,000 related to invoices paid to a subcontractor for products that
were not completed.

During audit resolution, AIP provided NSF with additional program income infor-
mation. As a result, NSF identif ed an additional $294,075 of program income
owed on an NSF-funded project, resulting in a total sustained questioned cost of


11
     March 2009 Semiannual Report, p. 18.


                                                                                         19
Audits & Reviews


                   $346,733. NSF conf rmed that AIP received the products that were questioned
                   for $25,000 and required AIP to improve its policies and procedures for sub-
                   award monitoring and proper handling of program income.

                   Education Development Center Agrees to Improve Subaward
                   Monitoring and Revise Travel Policies

                   In March 2009,12 we reported that an audit of $14.2 million of costs claimed
                   by Education Development Center, Inc. (EDC), an international non-prof t
                   educational research organization, identif ed compliance and internal control
                   def ciencies in EDC’s f nancial management that resulted in inadequate monitor-
                   ing of $1.3 million of subaward costs. During audit resolution, EDC agreed to
                   improve its subaward monitoring and revise its travel policies to better ensure
                   that the costs claimed on its NSF awards are allowable and that meal costs are
                   reasonable and well documented.

                   NSF Sustains Questioned Cost and Exploratorium Agrees to
                   Correct Control Weaknesses

                   In March 2009,13 we reported that an audit of awards made to Exploratorium,
                   a non-prof t educational organization and science museum, identif ed limited
                   subaward monitoring, undocumented expenses, and unreported program
                   income resulting in $340,204 in questioned costs. NSF sought recovery of all
                   of the questioned costs in audit resolution. In addition, Exploratorium agreed to
                   adhere to its policy to maintain adequate documentation and revise its policies
                   and procedures to improve its subawardee monitoring process and ensure
                   program income is properly reported.




                   12
                        March 2009 Semiannual Report, p. 17.
                   13
                        March 2009 Semiannual Report, p. 17.


             20
                                                       Investigations
Research Misconduct Investigations
Research misconduct damages the scientific enterprise, is a mis-
use of public funds, and undermines the trust of citizens in science
and in government. For these reasons, pursuing allegations of
research misconduct by NSF-funded researchers continues to be
a focus of our investigative work. In recent years, we have seen a
significant rise in the number of substantive allegations of miscon-
duct associated with NSF proposals and awards. It is imperative
to the integrity of research funded with taxpayer dollars that we
ensure that NSF PIs carry out their projects with the highest ethical
standards.

During this reporting period, we referred five cases to NSF which
are summarized below. In the first case, NSF made a finding and
took actions consistent with our recommendations. NSF’s deci-
sions are pending in the other four cases.

Professor Plagiarizes in CAREER Proposal

Our investigation confirmed that a professor at a South Dakota
university extensively plagiarized in the CAREER proposal he
submitted to NSF. The professor claimed that he mistakenly up-
loaded his draft proposal in NSF’s electronic proposal system. He
pointed to an internal university proposal as an example of the text
he meant to submit to NSF; however, the university also discovered
plagiarism in that proposal as well as plagiarism in his Ph.D. dis-
sertation from another university. The professor resigned prior to
any disciplinary action by the university.

Consistent with our recommendations, NSF made a finding of
research misconduct; sent a letter of reprimand to the professor;
required certifications and assurances for three years; prohibited
him from serving as a reviewer of NSF proposals for three years;
and required him to complete ethics training.

Doctoral Student Demonstrated Pattern of Purposeful
Data Falsification

A doctoral student at a Pennsylvania university purposefully falsi-
fied data and conclusions in 5 manuscripts citing NSF support, 3         HIGHLIGHTS
of which had been published. She also convinced an individual            Research Misconduct
to manipulate data to cover up her earlier falsification. However,        Investigations	      21
she subsequently cooperated with the university’s extensive              Administrative
review of data from all of her projects which revealed additional         Investigations	      27
misconduct involving funding from NSF and another federal agency.        Civil and Criminal
At the completion of the university investigation, the student, the       Investigations	      29

                                                                        21
Investigations



                       Research misconduct investigations follow the investigative model outlined
                      in NSF’s Research Misconduct regulation,14 based on the government wide
                      policy promulgated by the Office of Science and Technology Policy.15 This
                      investigative model is unique in that it generally relies on awardee institu-
                      tions to conduct their own independent investigations, subject to our review
                      and further investigation, followed by NSF’s agency adjudication.

                      When our office receives a research misconduct allegation, we first con-
                      duct a confidential inquiry to establish whether the allegation is substantive.
                      This inquiry often involves confidential communication between our office
                      and the accused subject and does not involve the subject’s institution. If
                      the subject is able to provide an adequate explanation to dispel the allega-
                      tion, our inquiry closes and only the subject is aware that the matter was
                      brought to our attention. This protects the subject’s reputation from being
                      unjustly tarnished by frivolous or minor allegations.

                      In cases where the allegation appears to have substance, we move into the
                      investigation phase, which in most cases involves referring the case to the
                      subject’s institution. The institution conducts an investigation and provides
                      us with its investigation report, which we review for fairness, accuracy, and
                      completeness. If the institution’s report is thorough and adequate for our
                      purposes, we use the report as the basis for our independent investigation;
                      if the university did not fully address all of the issues, we conduct additional
                      investigation ourselves.

                      Based on the university’s report and any additional investigation on our
                      part, if we conclude that the subject committed research misconduct under
                      NSF’s definition (see sidebar), we write an investigation report, and provide
                      the subject an opportunity to comment on our assessment of the evidence
                      and recommended actions. After reviewing the subject’s comments, we
                      finalize the report and send it to NSF’s Deputy Director for adjudication. If
                      the Deputy Director concludes that the subject committed research mis-
                      conduct and imposes actions, the subject can appeal the decision to NSF’s
                      Director, whose decision is final.



                 university, and the other federal agency entered into a three-party voluntary
                 settlement agreement in which the university rescinded her graduate degrees,
                 and she agreed not to apply for funding from the agency for 3 years. However,
                 based on the actions of the university and the other federal agency, we did not
                 believe that the government’s interests were adequately protected because the
                 other agency’s voluntary exclusion did not have the full government-wide effect
                 of a debarment.

                 Our further investigation also determined that the student’s current employer
                 is a federal contractor that produces reports and data analyses which it sells
                 to both public and private sector clients. We identified two reports on which


                 14
                      45 C.F.R. part 689.
                 15
                      65 Fed. Reg. 76260 (12/6/00), available at http://www.ostp.gov/cs/federal_policy_on_research_misconduct.


           22
                                                             OIG Semiannual Report     September 2009


the student was a coauthor, and the student admitted to us that she performed
some of the data analysis in these reports and indicated that her current
employer is unaware of the research misconduct finding at the university.

We concluded that the student committed purposeful falsification as part of
a larger pattern of misconduct. We have recommended that NSF: make a
finding of research misconduct; send the student a letter of reprimand; debar
her for 5 years; require her to complete ethics training; require her to seek either
retraction or correction of the published work; require her to provide certifica-
tions and assurances for 3 years following the debarment period; and bar her
from serving NSF as a reviewer, advisor, or consultant for 3 years following the
debarment period.

Research Professor Fabricates and Falsifies Data in NSF Proposal

A research professor at a Nevada university fabricated images in his NSF
proposal by assembling several smaller images into a larger image, and falsi-
fied the image description. The professor asserted that the fabrication and
falsification were without consequence because experiments he conducted
after submitting the proposal confirmed the images he had fabricated.

The university investigation recommended a finding of research misconduct,
but the professor resigned before the university took action. We have recom-
mended that NSF make a finding of research misconduct; send the professor a
letter of reprimand; debar him for 2 years; require certifications and assurances
for 3 years after the debarment ends; prohibit him from serving as a reviewer
of NSF proposals for 3 years after the debarment ends; and require him to
complete a course in ethics training.

Student Plagiarizes in Proposal Requesting Doctoral Funding

A doctoral student at a Nevada university acknowledged that he submitted
a Doctoral Dissertation Improvement Grant proposal to NSF that contained
material copied from two other sources. The student, who was the co-PI,
asserted that this happened because he accidentally submitted an early draft of
the proposal as a result of problems he was having with his computer when he
was conducting fieldwork abroad.

We referred this matter to his university which concluded that although the
student had plagiarized, his actions were careless and therefore did not
constitute research misconduct. The university took several actions against
the student including requiring him to write letters of apology to the university,
NSF, and the authors of the source documents and denying him any additional
departmental funding.

Although we agreed with the university’s overall assessment, we concluded that
the evidence demonstrated that the student acted recklessly, not carelessly,
and therefore his actions constituted research misconduct. We recommended
that NSF make a finding of research misconduct and that it take other actions
including sending a letter of reprimand; requiring certifications for 1 year; and
requiring completion of a course in research ethics.


                                                                                       23
Investigations


                 PI and Co-PI Plagiarize in Joint and in Separate Proposals

                 We substantiated an allegation that a PI and a co-PI from a Wyoming university
                 plagiarized in one joint NSF proposal, two other proposals by the PI, and a
                 fourth proposal by the co-PI.

                 The university determined that the PI recklessly or knowingly committed
                 plagiarism in three NSF proposals and that the co-PI recklessly plagiarized
                 material in two NSF proposals and 3 published articles. The university required
                 both individuals to complete ethics training, conduct a presentation on research
                 ethics, and certify for two years that their proposals to federal entities do not
                 contain plagiarism. We concluded that the co-PI’s actions did not rise to the
                 level of research misconduct. We agreed with the university that the PI’s action
                 constituted research misconduct and have recommended that NSF make a
                 finding of research misconduct, send a letter of reprimand, and require certifica-
                 tions from the PI for one year.

                 OIG Reviews University Findings regarding Human Subject
                 Regulation and Plagiarism

                 In the first case, we reviewed a university’s actions related to alleged violations
                 of NSF’s human subjects regulation on an NSF-funded project. In the second,
                 we reviewed findings related to plagiarism on an NSF award.

                 PI and co-PI Violated Human Subjects Regulation

                 The Federal Policy for the Protection of Human Subjects (Policy) imposes
                 strict requirements on all federally funded research that involves people as
                 the subjects of the research. At NSF, this includes all awards to develop and
                 implement innovative ways to advance science, mathematics, and engineering
                 education for students. Awards involving human subjects are overseen by
                 panels at the awardee institutions called Institutional Review Boards (IRBs). On
                 several occasions, we have found problems with awardees’ compliance with the
                 Policy.

                 We received information that a New Mexico university’s IRB terminated work
                 on an NSF-funded project and ordered a portion of the data destroyed because
                 it found numerous violations of the Policy by the PI and co-PI. The violations
                 included unapproved medical and cognitive testing and inappropriate data
                 sharing. Our investigation concluded that although the PI and Co-PI should
                 have been more cognizant of their responsibilities under the policy, they were
                 in frequent contact with the IRB and believed they were complying with IRB
                 policies. Therefore, we determined that no further action by NSF was neces-
                 sary, and we sent letters to the PI, Co-PI, and the university IRB apprising them
                 of the need to ensure compliance with federal, university, and grant Human
                 Subject Regulations.




           24
                                                               OIG Semiannual Report   September 2009



      NSF’s Definition of Research Misconduct16:
     a.	 Research misconduct means fabrication, falsification, or plagiarism in
         proposing or performing research funded by NSF, reviewing research
         proposals submitted to NSF, or in reporting research results funded by
         NSF.
          1.	 Fabrication means making up data or results and recording or
              reporting them.
          2.	 Falsification means manipulating research materials, equipment,
              or processes, or changing or omitting data or results such that the
              research is not accurately represented in the research record.
          3.	 Plagiarism means the appropriation of another person’s ideas,
              processes, results or words without giving appropriate credit.
          4.	 Research, for purposes of paragraph (a) of this section, includes
              proposals submitted to NSF in all fields of science, engineering,
              mathematics, and education and results from such proposals.
     b.	 Research misconduct does not include honest error or differences of
         opinion.


Graduate Student Misinterprets Advisor’s Advice and Plagiarizes

An Ohio university informed us it had reviewed an allegation of plagiarism under
an NSF award and concluded an investigation was warranted. The PI, who
was also the department chair, was the thesis advisor for several students who
worked on related research within his group over several years.

During the university investigation, one of the students who the PI advised
stated that he had looked at copy of one of the PI’s former student’s thesis
to check his work, but denied that he had copied text from the thesis of that
student, who was also advised by the same PI. During the course of the uni-
versity’s investigation, the PI acknowledged that he encouraged students to use
wording from former students’ work, had not carefully explained the importance
of citation, and that he accepted responsibility for not checking to see if text had
been copied and for failing to explain the importance of citation.

Although the university acknowledged shortcomings in the PI’s guidance, it
concluded that the student was responsible for the plagiarism. As a result of
these shortcomings, the university recommended the institution of a university-
wide program to promote the responsible conduct of research for faculty, staff,
and students. We sent the student a warning letter with guidance about proper
citation practices, and the PI a letter of admonishment. We concluded that the
PI’s poor mentoring mitigated the student’s conduct and that the university’s
actions were sufficient to protect NSF’s interests.




16
     45 C.F.R. § 689.1.


                                                                                       25
Investigations


                 Actions by NSF Management on Previously Reported Research
                 Misconduct Investigations

                 NSF has taken administrative action to address our recommendations on six
                 research misconduct cases reported in our March 2009 report. In each case,
                 NSF made a finding of research misconduct and issued a letter of reprimand.
                 NSF also took additional significant actions in response to our recommenda-
                 tions which are summarized below.

                 •	     Associate Professor at a Texas University Plagiarized Into Seven NSF
                        Proposals, Resulting in Awards Totaling $420,000.17 NSF debarred
                        him for 18 months; required certifications and assurances for 2 years; and
                        barred him from serving as an NSF reviewer for 2 years.

                 •	     PI from a Northeastern University Plagiarized Text into Two NSF
                        Proposals.18 NSF proposed to debar the PI for 5 years; prohibited her from
                        serving as an NSF reviewer, advisor, or consultant for 5 years; and directed
                        her to submit certifications and assurances for three years following the
                        expiration of the debarment. NSF’s final decision on the proposed debar-
                        ment is pending.

                 •	     PI From a California Institution Submitted a Proposal In Which a Third
                        of the Text Was Inadequately Cited.19 NSF required certifications and
                        assurances for 1 year; and barred him from serving NSF as a reviewer,
                        advisor, or consultant for 1 year.

                 •	     PI From an Indiana University Submitted a Proposal Containing
                        Plagiarized Text.20 NSF required certifications and assurances for 2 years

                 •	     Professor at Pennsylvania Institution Plagiarized Text into Two NSF
                        Proposals.21 The Deputy Director required certifications and assurances
                        required for 3 years; the professor filed an appeal to the Director, which is
                        pending.

                 •	     PI at a Maryland University Submitted Three NSF Proposals
                        Containing Plagiarized Text.22 NSF required certifications and assur-
                        ances required for 1 year; barred him from serving NSF as a reviewer,
                        advisor, or consultant for 1 year.




                 17
                      September 2008 Semiannual Report, p.40; March 2009 Semiannual Report, p.44.
                 18
                      March 2009 Semiannual pp.45-46.
                 19
                      March 2009 Semiannual Report, p.46.
                 20
                      March 2009 Semiannual Report, p.46.
                 21
                      March 2009 Semiannual Report, p.47.
                 22
                      March 2009 Semiannual Report, p.47.


           26
                                                            OIG Semiannual Report    September 2009


Administrative Investigations
During the past six months, we conducted an administrative investigation of an
NSF employee who abused the time and attendance system to receive pay for
hours she did not work. We also found that a program manager violated NSF
policies when he posted a conf dential proposal on his university website.

NSF Employee Fails to Account Properly for Hours Worked

We received an allegation that an NSF employee was taking leave and failing
to report it. We analyzed her time and attendance records, telephone records,
and email folders. Based on this analysis, we concluded that she failed to
account properly for her time worked and leave taken in order to receive pay
and credit for hours she did not work. Specif cally, we identif ed 10 days for
which the employee was paid for time she did not work, 4 days she did not sign
out, and 6 days she failed to account for her time accurately. As a result of this
abuse, she earned $974 for 49 hours she did not work. We referred the results
of our investigation to NSF management, and their decision in this matter is
pending.

NSF Program Manager Posts Confidential Proposal on His Personal
Webpage

We substantiated an allegation that an NSF program manager, who was in
a temporary position through the Intergovernmental Personnel Act, posted a
recent NSF proposal on his university website where it was publicly available
for a year. He had posted the proposal to make it available to two additional
reviewers he had solicited, who were not in NSF’s electronic proposal system.
Publicly posting a conf dential proposal violated NSF policy. NSF’s Policy and
Award Manual def nes the proposal as one of the pieces of sensitive informa-
tion program directors handle in the course of their duties, and NSF policy
makes clear that pending proposals must be safeguarded and protected from
unauthorized disclosure. In addition, this proposal would not have been, and is
not, available through a Freedom of Information Act request.23

The program manager’s failure to include the reviewers in NSF’s system
precluded them from being screened for conf icts of interests. It also resulted
in NSF not having an accurate system of records regarding its review process,
which is important so decisions can be fully documented and in cases where
review panelists are involved, NSF can comply with the Federal Advisory
Committee Act.

Finally, it is important for NSF to know who has access to a proposal in the
event of an unauthorized release or an allegation of plagiarism. A further
problem resulting from the inappropriate use of reviewers outside of NSF’s
system is the fact that those reviewers did not receive an express promise of
conf dentiality, which NSF’s procedures require. As a result, if the PI were to
submit a Privacy Act request, NSF may not be able to withhold the identity


23
     45 C.F.R. § 612.7(a)(4)(i).


                                                                                     27
Investigations


                 of those individuals, as it does for all other reviewers. NSF has advised the
                 program manager, who is no longer at the agency, that he must follow appropri-
                 ate procedures if he returns to NSF.

                 NSF Takes Steps on Cases of Employee Misconduct

                 In recent years, we have referred a number of employee misconduct cases
                 to NSF and made many management recommendations for improving NSF’s
                 workplace environment. NSF has taken several significant steps to address
                 recommendations arising from employee misconduct investigations we reported
                 in our March 2009 semiannual report. This misconduct involved improper use
                 of NSF information technology resources, as well as phone, time and atten-
                 dance misuse, and abuse of transit subsidies.

                 In response to our recommendation regarding improper internet use by eight
                 employees, NSF installed internet filtering software that prevents access by
                 NSF computers to inappropriate web sites such as gambling and sexually
                 explicit adult sites. NSF is also exploring additional software that would filter
                 incoming and outgoing emails and attachments to prevent inappropriate mate-
                 rial from being received and sent from NSF information technology resources.

                 In addition, in September 2009 the NSF director issued a memorandum to all
                 NSF staff detailing the safeguards, training, and policies that the agency has
                 implemented pertaining to inappropriate use of government computers. This
                 memorandum makes it clear that NSF has a zero tolerance policy for this type
                 of misconduct and that NSF will strictly enforce this policy. We fully support
                 these initiatives and look forward to their implementation.

                 In response to our recommendations regarding inappropriate computer use by
                 eight employees, NSF removed two employees, suspended one for 60 days
                 and reduced his grade, suspended one for 15 days and suspended two others
                 for one day. Two had previously left NSF. The six remaining employees retain
                 the right to appeal the action against them. In another case, NSF terminated an
                 employee who inappropriately used his government computer to email sexually
                 explicit material. After he filed a grievance, the action against him was changed
                 to resignation.

                 NSF proposed to terminate two employees for time and attendance abuse;
                 however, both resigned in lieu of being removed. NSF issued an Official
                 Reprimand to an employee for excessive use of the phone during work hours.
                 Finally, NSF implemented all of our recommendations regarding programmatic
                 improvements to its transit subsidy program and took personnel actions against
                 the four current employees who abused their government-provided transit
                 benefits. Two were required to repay the excess subsidies they received, and
                 two received oral counseling.

                 NSF recently issued a draft of the Director’s “Employee Action Agenda” with
                 a goal of creating a model workplace at NSF. We commend the agency for
                 this agenda which includes goals of mandatory training for all managers and
                 supervisors in harassment prevention, timely responses to misconduct, and the
                 development of a formal performance management framework for individuals


           28
                                                            OIG Semiannual Report    September 2009


under the Intergovernmental Personnel Act, among other things. We look
forward to continuing to work with NSF to help ensure the integrity of the
agency’s operations and to prevent abuse of government resources.


Civil and Criminal Investigations
We investigate violations of federal civil and criminal statutes by applicants for
and recipients of NSF funds, as well as NSF employees and contractors.  When
we find substantial evidence of wrongdoing, we refer cases to the Department
of Justice for prosecution, and recommend administrative action by NSF in
appropriate circumstances.

University Returns $31,521 to NSF and Conducts Training on
Federal Requirements

We received allegations that a PI at a Massachusetts university purchased
equipment for his children’s use, double-billed NSF and other funding sources
for his travel expenses, and traveled with his office administrator and charged
her expenses to NSF grants. The PI’s university had reviewed the PI’s past
and present federal and non-federal research activity and found no evidence
of wrongdoing by the PI; however, it identified $31,521 of questioned costs,
as well as areas for improvement for the PI and the grant administrators in his
department. As a result, the university returned $31,521 to NSF, and the PI and
his department’s grant administrators received training on federal requirements
and university policies.

NSF Receives $10,758 in Settlement of Allegations of Excessive
Faculty Salary Charges by University

A multi-agency investigation led by the Department of Defense (DOD) OIG
determined that a Massachusetts university overcharged salary for several
faculty members to numerous awards from the Department of Energy, DOD,
and NSF. Without admitting that its faculty salary charges were excessive, the
university changed its policy to prevent this type of mischarging in the future
and paid $636,500 to settle the matter. NSF’s share of this settlement, based
on its proportionate share of the mischarges, was $10,758.

Criminal Convictions Result in Debarments by NSF

NSF has taken action in response to our recommendations on several criminal
convictions we reported in our March 2009 report.

•	   NSF debarred a former research center employee for 5 years after she pled
     guilty to 17 counts of mail fraud and 5 counts of theft from an organization
     receiving federal funds following her use of state-issued purchase cards to
     buy items for personal use. She was also sentenced to 32 months in prison
     and ordered to pay restitution of over $300,000.

•	   NSF debarred for 5 years an individual who pled guilty to impersonating an
     NSF official to lure women to participate in a fake NSF project. He was also

                                                                                     29
Investigations


                       ordered to pay more than $80,000 in fines and penalties and sentenced to
                       5 years probation with real-time monitoring of his computer use, and to 6
                       months home detention.

                 In four other cases in which we recommended that NSF impose 3-year debar-
                 ments, NSF issued Notices of Proposed Debarment that are pending. The
                 cases include:

                 •	    A research center employee who received kickbacks for contracts—this
                       individual was sentenced to 12 months home detention and ordered to pay
                       more than $80,000 in restitution;

                 •	    A university employee who used a government purchase card for personal
                       use and charged more than $11,000 to an NSF award—the university
                       terminated her and paid NSF back; she pled guilty to embezzlement, was
                       sentenced to 5 years probation, and was ordered to pay full restitution;

                 •	    A PI who improperly charged over $280,000 to an NSF award—the univer-
                       sity returned the improperly charged money to NSF and terminated the PI;
                       and

                 •	    A PI who improperly managed an NSF award and failed to disclose conflicts
                       of interests.

                 NSF Imposes Oversight Requirements on University that Misspent
                 Award Funds

                 After an OIG investigation disclosed problems with use and management of
                 NSF award funds at a Georgia university, pursuant to our recommendations
                 NSF placed the university on advance monitoring and imposed special payment
                 conditions on all of its NSF awards. Although we ultimately determined that
                 this case did not warrant civil or criminal prosecution or debarment, we recom-
                 mended that NSF take administrative action to protect its award funds.


                      We are pleased to report that NSF OIG has again received 5 U.S.C.
                      §2302(c) certification from the Office of Special Counsel (OSC). We have
                      maintained this certification for over six years.
                      5 U.S.C. §2302, Prohibited Personnel Practices, at §2302(c), requires that
                      all federal employees be informed of the rights and remedies available to
                      them under the prohibited personnel practice and whistleblower retaliation
                      protection provisions of Title 5. OSC established its 2302(c) Certification
                      Program to facilitate efforts to meet these statutory obligations.
                      To gain this certification, we ensured that informational posters were
                      displayed throughout our work areas; ensured information about prohibited
                      personnel practices and the whistleblower protections was provided to cur-
                      rent employees and to new employees as part of an orientation process;
                      ensured supervisors were trained on these subjects; and established a link
                      to OSC on the OIG webpage. Both OIG and the National Science Board
                      are 2302(c)-certified.


           30
                                OIG Management Activities
Congressional Testimony
In August 2009, the Inspector General testif ed before the Senate
Commerce, Science, and Transportation Committee at a hearing
titled “Waste, Fraud, and Abuse in the Small Business Innovation
(SBIR) Program. The SBIR program at NSF is a valuable tool in
providing funds to small, high-tech businesses conducting innova-
tive research to advance the agency’s mission. The Inspector
General stated that the vast majority of companies receiving SBIR
awards from NSF spend these funds to carry out the research
they proposed to do; over time, however, the OIG has received
allegations and conducted investigations of companies that have
allegedly committed fraud involving SBIR awards.

The primary type of fraudulent activity found in NSF’s SBIR pro-
gram is duplicative funding, in which companies obtain awards from
more than one federal agency for the same or duplicative work.
The Inspector General emphasized that in response to our recom-
mendations, NSF requires companies to disclose when they submit
proposals to more than one agency and to certify the accuracy
of that disclosure. Additionally, NSF’s guidance makes it clear to
potential recipients that they are prohibited from receiving duplicate
funding for the same or overlapping research.

NSF also requires all companies that receive a Phase I SBIR award
to attend a workshop to help them comply with NSF requirements.
For over 10 years, this workshop has included a brief ng by the
OIG that makes it clear that violations of SBIR program require-
ments constitute wrongdoing that can result in signif cant criminal,
civil, and administrative consequences. The Inspector General
stressed that NSF has supported the OIG’s efforts to prevent and
detect fraud in the SBIR program and has instituted processes that
enhance the OIG’s ability to prosecute such fraud. The OIG will
continue to work with NSF to prevent unscrupulous companies from
the defrauding the SBIR program.


Outreach
As part of our mission to prevent fraud, waste, and abuse, we
conduct outreach programs at conferences and for grantees. We
tailor these programs to specif c needs, and present information
regarding research misconduct and f nancial fraud, as well as
general information about what our off ce does to prevent fraud,          HIGHLIGHTS
waste, and abuse.
                                                                          Congressional Testimony 31
                                                                          Outreach 3               1

                                                                         31
OIG Management


                 Our office is recognized nationally and internationally as a leader in the area of
                 research misconduct. NSF was one of the first government agencies to issue a
                 research misconduct regulation and was instrumental in the development of the
                 Office of Science and Technology Policy’s government-wide research miscon-
                 duct policy. Our office receives numerous requests from universities and others
                 in the research community to provide training on preventing, detecting, and
                 investigating research misconduct, and we have made a number of presenta-
                 tions in the past six months. In addition, our office played a significant role in
                 drafting the “Practical Guide to Investigating Research Misconduct Allegations
                 in International Collaborative Research Projects”24 which was finalized by the
                 Organization for Economic Cooperation and Development (OECD) during this
                 period.

                 Outreach to NSF, the National Science Board, universities, the research com-
                 munity, and others is an essential tool in our efforts to prevent and deter fraud
                 and abuse related to NSF- funded grants. Examples of our outreach activity
                 during this reporting period include providing grant fraud training for OIG inves-
                 tigators and auditors and providing best practices and practical suggestions to
                 NSF grant recipients on reducing fraud and mismanagement. In addition, our
                 office made a presentation to the Society of Research Administrators Interna-
                 tional and to the National Grants Management Association.

                 We also conduct briefings for recipients of grants under the Small Business
                 Innovation Research (SBIR) program to make it clear to awardees that viola-
                 tions of SBIR program requirements constitute wrongdoing, and we outline the
                 specific criminal, civil, and administrative consequences of such wrongdoing.
                 U.S. Attorneys who have prosecuted cases of fraud against SBIR have cited
                 these briefings as an asset in prosecutive decisions. We also participated
                 in NSF’s new employee orientation sessions to inform employees about our
                 office’s role and about their responsibility to report potential waste, fraud, and
                 abuse to us.

                 In keeping with our efforts to focus on the prevention of fraud, waste, and
                 abuse in Recovery Act programs and funding, we are working with NSF to
                 provide timely fraud prevention and detection guidance. The agency has been
                 receptive to our input and we continue to work to help ensure that Recovery Act
                 funding is reaching the intended recipients.

                 In June, 2009, the Associate Inspector General for Audit co-chaired an interna-
                 tional workshop in Portugal on challenges associated with managing research
                 accountability. Dr. Christine Boesz, former NSF Inspector General, served
                 as the workshop facilitator. Hosted by the Portuguese Foundation for Science
                 and Technology and the National Science Foundation, this workshop was
                 the seventh in a series of international accountability workshops, which have
                 focused on topics such as implementing grant oversight strategies, evaluating
                 research results, and strategies to prevent fraud and abuse of research funds.
                 This year’s workshop, entitled Restoring Trust, featured case studies and best
                 practices for addressing accountability challenges. Workshop participants
                 came from the United States, nine European countries, the European

                 24
                      Available at http://tinyurl.com/y88gpac.


           32
                                                                              OIG Semiannual Report      September 2009


Commission, and Japan. In addition to NSF, United States participants
included the director of sponsored programs at the University of Washington
and the director of internal audit at the Nature Conservancy. The Associate
Inspector General for Audit’s presentation, American Recovery and Reinvest-
ment Act, discussed the unique challenges recipients of stimulus funds faced in
complying with the explicit goals and detailed requirements of the Act.

The Office of Audit also participated in numerous domestic outreach events
related to the Recovery and Reinvestment Act during this reporting period. For
example, Audit participated in a panel discussion at a Federal Demonstration
Partnership25 meeting in May 2009 on how to administer stimulus funds. Also,
throughout this semiannual period Auditors networked with other OIGs to
discuss strategies for complying with the Act’s unprecedented accountability,
transparency, and oversight requirements. In addition, Auditors actively par-
ticipated in developing guidance to assist auditors who perform Single Annual
Audits, test Recovery and Reinvestment Act expenditures. Further, Auditors
and Investigators participated in five NSF workgroups that focused on Recovery
and Reinvestment Act topics, such as award processing, budget issues, post
award monitoring, and reporting requirements, to help ensure that the agency
and the awardees it funded under the Act, complied with its new, complex
requirements.

Our Office of Investigations Summer Internship Program is noteworthy in the IG
community. During this semiannual period, the program reached a new high,
with 13 interns joining our office. Through this program, interns from colleges
and law schools throughout the nation, work with civil/criminal investigators,
investigative scientists, and investigative attorneys, conducting high quality
research, reviewing documents, and interviewing witnesses. Most significantly,
our interns draft review plans to proactively identify wrongdoing and systemic
weaknesses which contributes to our mission of preventing and detecting fraud.
We are proud that the knowledge and experience gained by our interns have
contributed to their success in obtaining challenging and rewarding employment
after graduation.

Providing Information to the OIG in a Timely and Effective Manner

It is important to note that in August 2009, the Director issued a memorandum
to all NSF employees emphasizing our office’s vital role in preventing and
detecting fraud, waste, and mismanagement and strongly stated his expectation
that all NSF employees and offices will cooperate fully with our office. This
memorandum specifically directed NSF personnel to refrain from any activity
that might inhibit communication or cooperation with the OIG. We commend
the agency for this initiative and its recognition of the critical importance of
providing information to our office in a timely manner.




25
   The Federal Demonstration Partnership includes federal agencies, academic research institutions and
research policy organizations.


                                                                                                         33
OIG Management




           34
                                                   Statistical Data
                         Audit Data
     Audit Reports Issued with Recommendations
               for Better Use of Funds


                                                  Dollar Value
A.   For which no management decision has            $3,053,497
     been made by the commencement of the
     reporting period
B.   Recommendations that were issued                            $0
     during the reporting period
C.   Adjustments related to prior recommen-                      $0
     dations
Subtotal of A+B+C                                    $3,053,497
D.   For which a management decision was
     made during the reporting period                            $0
     i)    Dollar value of management deci-
           sions that were consistent with OIG                   $0
           recommendations
     ii)   Dollar value of recommendations that
           were not agreed to by management                      $0
E.   For which no management decision had            $3,053,497
     been made by the end of the reporting
     period
For which no management decision was made            $3,053,497
within 6 months of issuance




                                                                      35
Statistical Data


                               Audit Reports Issued with Questioned Costs

                                                                           Number of           Questioned           Unsupported
                                                                            Reports              Costs                 Costs
  A.    For which no management decision has
        been made by the commencement of the                                     27           $59,033,545            $1,091,038
        reporting period
  B.    That were issued during the reporting
        period25                                                                 13            $4,735,465             $1,617,013
  C.    Adjustment related to prior recommendations
  Subtotal of A+B+C                                                              40           $63,769,010            $2,708,051
  D.    For which a management decision was                                      18            $1,384,297             $426,906
        made during the reporting period
        i) dollar value of disallowed costs                                     N/A            $1,072,246                 N/A
        ii) dollar value of costs not disallowed                                N/A              $312,051                 N/A
  E.    For which no management decision had                                     22           $62,384,713            $2,281,145
        been made by the end of the reporting
        period
  For which no management decision was made                                       9           $57,649,248             $664,132
  within 6 months of issuance




26
   Of the 13 audit reports with questioned costs issued during this period, eight were Single Audit (A-133) audit reports, with a total
of $587,396 questioned costs. Of those eight, four A-133 reports found a total of $145,098 unsupported costs.


              36
                                                         OIG Semiannual Report     September 2009


                   Audit Reports Involving Cost-Sharing Shortfalls

                                           Number       Cost-        At Risk of    Actual Cost
                                             of        Sharing      Cost Shar-       Sharing
                                           Reports    Promised     ing Shortfall    Shortfalls
                                                                     (Ongoing      (Completed
                                                                      Project)       Project)

A.   Reports with monetary findings for      3       $1,353,360         $0          $834,556
     which no management decision
     has been made by the beginning of
     the reporting period:
B.   Reports with monetary findings that     1       $10,576,949    $136,263            $0
     were issued during the reporting
     period:
C.   Adjustments related to prior recom-     0           $0             $0              $0
     mendations
Total of reports with cost sharing           4       $11,930,309    $136,263        $834,556
findings (A+B+C)
D.   For which a management decision         2        $437,258          $0          $323,838
     was made during the reporting
     period:
     1. Dollar value of cost-sharing         2        $437,258          $0          $323,838
        shortfall that grantee agreed to
        provide
     2. Dollar value of cost-sharing         0           $0             $0              $0
        shortfall that management
        waived
E.   Reports with monetary findings for      2       $11,493,051    $136,263        $510,718
     which no management decision
     has been made by the end of the
     reporting period




                                                                                   37
Statistical Data



     Status of Recommendations that Involve Internal NSF Management Operations

     Open Recommendations (as of 09/30/2009)
      Recommendations Open at the Beginning of the Reporting Period                                            52
      New Recommendations Made During Reporting Period                                                          0
      Total Recommendations to be Addressed                                                                    52
     Management Resolution of Recommendations26
      Awaiting Resolution                                                                                       9
      Resolved Consistent With OIG Recommendations                                                             43
     Management Decision That No Action is Required                                                             0
     Final Action on OIG Recommendations27
      Final Action Completed                                                                                    3
     Recommendations Open at End of Period                                                                     49




                                    Aging of Open Recommendations

      Awaiting Management Resolution:
        0 through 6 months                                                                                      0
        7 through 12 months                                                                                     6
        More than 12 months                                                                                     3
     Awaiting Final Action After Resolution
        0 through 6 months                                                                                      0
        7 through 12 months                                                                                    20
        More than 12 months                                                                                    20




27
    “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple-
mented in response to the audit recommendations.
28
   “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.



             38
                                                          OIG Semiannual Report    September 2009


                                        List of Reports

NSF and CPA Performed Reviews
Report     Subject                                Questioned    Unsupported    Better        Cost
Number                                            Costs         Costs          Use of        Sharing
                                                                               Funds         At-Risk
09-1-008   Cornell University Effort Reporting            $0             $0             $0             $0
           System
09-1-009   Georgia Tech Effort Reporting                  $0             $0             $0             $0
           System
09-1-010   Carnegie Institution of Washington        $25,718         $25,718            $0             $0
09-1-011   Wisconsin Ice Core Drilling Services    $2,475,308        $27,308            $0             $0
09-1-012   Arizona State Effort Reporting            $29,700             $0             $0             $0
           system
09-1-013   Purdue Labor Effort Reporting             $12,630             $0             $0             $0
09-1-014   University of Michigan                  $1,604,713     $1,418,889            $0    $136,263
09-6-001   Alert Memo - ARRA – Potential High             $0             $0             $0             $0
           Risk Awardees
09-6-002   Alert Memo – OIG Understanding of              $0             $0             $0             $0
           ARRA Stakeholder Expectations
09-6-003   Alert Memo – Source Selection                  $0             $0             $0             $0
           Process for the Award of ASC
09-6-004   Alert Memo ARRA – Review of                    $0             $0             $0             $0
           Funding of In-House Proposals
09-6-005   Alert Memo – Contract Administra-              $0             $0             $0             $0
           tion Issue (Wisconsin)
            Total:                                 $4,148,069     $1,471,915            $0    $136,263




                                                                                   39
Statistical Data


                                           NSF-Cognizant Reports

   Report                                                        Questioned   Unsupported   Cost Sharing
   Number                             Subject                      Costs         Costs        At-Risk
  09-4-083         12-07 Association for Institutional                  $0             $0             $0
                   Research, Inc. - FL
  09-4-106         12-07 REJECTED DOSECC Drilling                       $0             $0             $0
                   Observation and Sampling of the Earth’s
                   Continental Crust - UT
  09-4-111         9-07 Fort Worth Museum of Science and                $0             $0             $0
                   History – TX
  09-4-112         9-07 Kentucky Science and Technology                 $0             $0             $0
                   Corporation
  09-4-113         9-07 LSST, Inc. – AZ                                 $0             $0             $0
  09-4-114         12-07 Monterey Bay Aquarium Research                 $0             $0             $0
                   Institute – CA
  09-4-115         8-07 MISE Merck Institute for Science and            $0             $0             $0
                   Education – NJ
  09-4-116         7-07 MSRI Mathematical Sciences Research             $0             $0             $0
                   Institute – CA
  09-4-117         6-07 Los Angeles County Museum of                    $0             $0             $0
                   Natural History Foundation – CA
  09-4-118         6-07 Maine Mathematics and Science                   $0             $0             $0
                   Alliance
  09-4-119         6-07 MPC Corporation – PA                            $0             $0             $0
  09-4-120         9-07 Montshire Museum of Science - VT                $0             $0             $0
  09-4-121         6-07 NISS National Institute of Statistical          $0             $0             $0
                   Sciences - NC
  09-4-122         6-07 New York Hall of Science                        $0             $0             $0
  09-4-123         5-07 Oregon Museum of Science and                    $0             $0             $0
                   Industry
  09-4-124         6-07 Oregon Public Broadcasting                      $0             $0             $0
  09-4-125         12-07 Puget Sound Center Foundation for              $0             $0             $0
                   Teaching Learning & Technology – WA
  09-4-126         6-07 QEMN Quality Education for Minorities           $0             $0             $0
                   Network – DC
  09-4-127         6-07 San Diego Society of Natural                    $0             $0             $0
                   History – CA
  09-4-128         12-07 Santa Fe Institute – NM                        $0             $0             $0
  09-4-129         6-07 SoundVision Productions - CA                    $0             $0             $0
  09-4-130         12-07 The Franklin Institute – PA                    $0             $0             $0
  09-4-131         12-07 Space Science Institute – CO                   $0             $0             $0
  09-4-132         6-07 The Institute for Global Environmental          $0             $0             $0
                   Strategies, Inc. - VA
  09-4-133         12-07 Sciencenter Discovery Museum – NY              $0             $0             $0
  09-4-134         9-07 The Algebra Project, Inc. – MA                  $0             $0             $0



             40
                                                           OIG Semiannual Report        September 2009


09-4-135   12-07 TERC Technical Education Research               $0                $0               $0
           Centers, Inc. – MA
09-4-136   6-07 The Brookings Institution – DC                   $0                $0               $0
09-4-137   12-07 The Mathematical Association of                 $0                $0               $0
           America – DC
09-4-138   12-07 The Samuel Roberts Noble Founda-                $0                $0               $0
           tion, Inc. - OK
09-4-139   8-07 Twin Cities Public Television, Inc. – MN         $0                $0               $0
09-4-140   9-07 The Concord Consortium                           $0                $0               $0
           Incorporated – MA
09-4-141   6-07 The Science Museum of                            $0                $0               $0
           Minnesota - MN
09-4-142   9-07 URA Universities Research                        $0                $0               $0
           Association, Inc. - DC
09-4-143   9-07 Teachers Development Group - OR                  $0                $0               $0
09-4-144   607 REJECTED Town of Hudson – MA                      $0                $0               $0
09-4-145   6-07 The Queens Borough Public                        $0                $0               $0
           Library - NY
09-4-146   9-07 NEON REVISED National Ecological                 $0                $0               $0
           Observatory Network, Inc. – CO
09-4-147   12-07 Biological Sciences Curriculum                  $0                $0               $0
           Study, Inc. – CO
09-4-148   6-07 Center for Occupational Research &               $0                $0               $0
           Development/CORD, Inc. - TX
09-4-149   12-07 Gulf of Maine Research Institute – ME           $0                $0               $0
09-4-150   9-07 Hazardous Material Training &                    $0                $0               $0
           Research Institute – IA
09-4-151   6-07 Illinois State Museum Society                    $0                $0               $0
09-4-152   6-07 IRIS Incorporated Research Institutions          $0                $0               $0
           for Seismology – DC
09-4-153   12-07 ICSI International Computer Science             $0                $0               $0
           Institute – CA
09-4-154   12-07 Institute for Global Environment and            $0                $0               $0
           Society, Inc. – MD
09-4-155   6-07 Institute for Advanced Study – NJ                $0                $0               $0
09-4-156   12-07 Institute for Broadening                        $0                $0               $0
           Participation – ME
09-4-157   12-07 Boyce Thompson Institute for Plant              $0                $0               $0
           Research – NY
09-4-158   6-07 Garfield Park Conservatory                       $0                $0               $0
           Alliance – IL
09-4-159   6-08 IUP Research Institute – PA                      $0                $0               $0
09-4-160   6-08 The Institute for Global Environmental           $0                $0               $0
           Strategies – VA
09-4-161   5-08 Oregon Museum of Science and                     $0                $0               $0
           Industry



                                                                                        41
Statistical Data


  09-4-162         6-08 Exploratorium – CA                         $0   $0   $0
  09-4-163         6-08 Harrisburg University of Science and       $0   $0   $0
                   Technology - PA
  09-4-164         6-05 REVISED School District of Riverview       $0   $0   $0
                   Gardens – MO
  09-4-165         6-08 Keck Graduate Institute of Applied Life    $0   $0   $0
                   Sciences – CA
  09-4-166         6-08 Garfield Park Conservatory                 $0   $0   $0
                   Alliance – IL
  09-4-167         6-08 California Science Center                  $0   $0   $0
                   Foundation – CA
  09-4-168         6-08 Viewpoints Research                        $0   $0   $0
                   Institute, Inc. – CA
  09-4-169         6-08 Cary Institute of Ecosystem                $0   $0   $0
                   Studies, Inc. – NY
  09-4-170         7-08 MSRI Mathematical Sciences Research        $0   $0   $0
                   Institute – CA
  09-4-171         6-08 Oregon Public Broadcasting                 $0   $0   $0
  09-4-172         12-07 Association of Science-Technology         $0   $0   $0
                   Centers – DC
  09-4-173         12-07 Astrophysical Research                    $0   $0   $0
                   Consortium – WA
  09-4-174         2-07 REJECTED Astronomical Society of           $0   $0   $0
                   the Pacific – CA
  09-4-175         3-07 Berkeley Geochronology Center – CA         $0   $0   $0
  09-4-176         12-07 BBSR/BIOS Bermuda Institute for           $0   $0   $0
                   Ocean Sciences – NY
  09-4-177         6-08 Illinois State Museum Society              $0   $0   $0
  09-4-178         6-08 School District of Riverview               $0   $0   $0
                   Gardens – MO
  09-4-179         6-08 Allegheny Intermediate Unit - PA           $0   $0   $0
  09-4-180         6-08 William Marsh Rice University – TX         $0   $0   $0
  09-4-181         6-07 Bigelow Laboratory for Ocean               $0   $0   $0
                   Science - ME
  09-4-182         6-08 Council for Adult and Experiental          $0   $0   $0
                   Learning – IL
  09-4-183         6-08 CSU Fullerton Auxiliary Services           $0   $0   $0
                   Corp. – CA
  09-4-184         6-08 Maine Mathematics and Science              $0   $0   $0
                   Alliance
  09-4-185         12-07 REJECTED OIDA Optoelectronics             $0   $0   $0
                   Industry Development Association, Inc. – DC
  09-4-186         3-08 Girls Incorporated – NY                    $0   $0   $0
  09-4-187         8-08 Twin Cities Public Television, Inc. – MN   $0   $0   $0
  09-4-188         6-08 Southwest Center for Educational           $0   $0   $0
                   Excellence – MO



             42
                                                          OIG Semiannual Report        September 2009


09-4-189   9-08 UCAR University corporation for                 $0                $0               $0
           Atmospheric Research – CO
09-4-190   6-08 New York Hall of Science – NY                   $0                $0               $0
09-4-191   6-08 QEMN Quality Education for Minorities           $0                $0               $0
           Network – DC
09-4-192   3-08 Berkeley Geochronology Center - CA              $0                $0               $0
09-4-193   6-08 Michigan State University                       $0                $0               $0
09-4-194   6-08 Science Museum of Minnesota                     $0                $0               $0
09-4-195   6-08 CRA The Computing Research As-                  $0                $0               $0
           sociation – DC
09-4-196   6-08 Chicago Children’s Museum – IL                  $0                $0               $0
09-4-197   6-08 Los Angeles County Museum of                    $0                $0               $0
           Natural History Foundation – CA
09-4-198   9-08 LSST, Inc. – AZ                                 $0                $0               $0
09-4-199   6-08 MPC Corporation – PA                            $0                $0               $0
09-4-200   6-08 Museum of Science – MA                          $0                $0               $0
09-4-201   6-08 Institute for Advanced Study – NJ               $0                $0               $0
09-4-202   6-08 Adler Planetarium – IL                          $0                $0               $0
09-4-203   9-08 The Concord Consortium, Inc. – MA               $0                $0               $0
09-4-204   6-08 Stark County Educational Service                $0                $0               $0
           Center – OH
09-4-205   6-08 Brooklyn Children’s Museum                 $34,979                $0               $0
           Corp. – NY
09-4-206   6-08 The Children’s Museum (Boston) – MA             $0                $0               $0
09-4-207   6-08 Children’s Museum, Inc.                         $0                $0               $0
           (Houston) – TX
09-4-208   6-08 Carnegie Institution of                         $0                $0               $0
           Washington – DC
09-4-209   6-08 Educational Broadcasting                        $0                $0               $0
           Company – NY
09-4-212   6-08 IRIS Incorporated Research Institutions         $0                $0               $0
           for Seismology and IRIS Ocean Cable – DC
09-4-213   9-08 Museum of Science and                           $0                $0               $0
           Industry, Inc. – FL
09-4-214   6-08 New York Botanical Garden                       $0                $0               $0
09-4-215   6-08 WNYC Radio – NY                                 $0                $0               $0
09-4-216   12-07 REVISED CRDF U.S. Civilian                     $0                $0               $0
           Research and Development
           Foundation – VA
09-4-217   6-08 American Museum of Natural                      $0                $0               $0
           History – NY
09-4-228   9-08 California Institute of Technology - CA         $0                $0               $0
           Total:                                          $34,979                $0               $0




                                                                                       43
Statistical Data


                                             Other Federal Audits

   Report                                                  Questioned     Unsupported   Cost Sharing
   Number                          Subject                   Costs           Costs        At-Risk
  09-5-105         6-08 State of Florida                       $1,894              $0             $0
  09-5-127         6-08 South Orange County Community        $122,694              $0             $0
                   College District - CA
  09-5-159         6-08 University of Richmond and Its        $35,400         $35,400             $0
                   Affiliates - VA
  09-5-164         6-08 Ohio State University - OH           $100,560              $0             $0
  09-5-175         5-08 LaSalle University - PA               $97,085         $97,085             $0
  09-5-176         9-07 Fort Berthold Community                     $75           $75             $0
                   College - ND
  09-5-183         6-08 Wildlife Trust, Inc., Wildlife       $194,709         $12,538             $0
                   Preservation Trust International - NY
                   Total:                                    $552,417        $145,098             $0




             44
                                                            OIG Semiannual Report     September 2009


               Audit Reports With Outstanding Management Decisions

This section identifies audit reports involving questioned costs, funds put to better use, and cost
sharing at risk where management had not made a final decision on the corrective action neces-
sary for report resolution with six months of the report’s issue date.  At the end of the reporting
period there were ten reports remaining that met this condition.  The status of recommendations
that involve internal NSF management is described on page 38.

 Report               Subject             Questioned     Unsupported     Better Use     Cost
 Number                                     Costs           Costs         of Funds    Sharing at
                                                                                        Risk
 05-1-005   RPSC Costs Claimed             $33,425,115              $0           $0            $0
            FY2000 to 2002
 06-1-023   RPSC 2003/2204 Raytheon        $22,112,521              $0           $0            $0
            Polar Services Company
 06-2-011   University Indirects                    $0              $0   $1,900,000            $0
 07-1-003   Triumph Tech, Inc.                 $80,740          $1,192           $0            $0
 07-1-015   Supplemental schedule to         $560,376               $0           $0            $0
            #06-1-023 RPSC
 07-1-019   Abt Associates                     $22,716              $0           $0            $0
 09-1-007   CRDF U.S. Civilian               $198,926               $0   $1,153,497            $0
            Research & Development
            Foundation
 09-4-088   12-07 American Association         $12,734              $0           $0            $0
            of Community Colleges DC
 09-5-048   8-07 College of the               $110,629              $0           $0            $0
            Mainland TX
 09-5-052   6-07 Howard University DC       $1,125,491       $662,940            $0            $0
            Total:                        $57,649,248        $664,132    $3,053,497            $0




                                                                                      45
Statistical Data


                                    INVESTIGATIONS DATA
                             (April 1, 2009 – September 30, 2009)

Civil/Criminal Investigative Activities

Referrals to Prosecutors        4
Criminal Convictions/Pleas      0
Civil Settlements        1
Indictments/Information         1
Investigative Recoveries        $                    663,194.45

Administrative Investigative Activities

Referrals to NSF Management for Action              13
Research Misconduct Findings                        5
Debarments                                          4
Administrative Actions                              65
Certif cations and Assurances Received              10




                                Investigative Case Statistics

    P                                  reliminary   Civil/Criminal Administrative

Active at Beginning of Period                53             76             72
Opened                                       55             41             52
Closed                                       163            30             52
Active at End of Period                      45             87             72




                   Freedom of Information Act and Privacy Act Requests

Our off ce responds to requests for information contained in our f les under the freedom of
Information Act (“FOIA,” 5 U.S.C. paragraph 552) and the Privacy Act (5 U.S.C. paragraph
552a). During this reporting period:

Requests Received       4             5
Requests Processed      43
Appeals Received                      0

Response time ranged between 1 days and 20 days, with the median around 15 days
and the average around 13 days.




            46
                                                            Appendix
October 16, 2009

MEMORANDUM
To:		          Dr. Steven C. Beering
		             Chair, National Science Board

		             Dr. Arden Bement
		             Director, National Science Foundation

From:		        Allison Lerner
		             Inspector General, National Science Foundation

Subject:	      Management Challenges for NSF in FY 2010

In accordance with the Reports Consolidation Act of 2000, I am
submitting our annual statement summarizing what the Office of
Inspector General (OIG) considers to be the most serious manage-
ment and performance challenges facing the National Science
Foundation (NSF). We have compiled this list based on our audit
and investigative work, general knowledge of the agency’s opera-
tions, and the evaluative reports of others, including the Govern-
ment Accountability Office and NSF’s various advisory committees,
contractors, and staff.

This year we have taken a fresh look at the challenges that NSF
faces and have focused on six issue areas that reflect fundamental
program risk, and are likely to require management’s attention for
years to come. They include:

•	   Ensuring Proper Stewardship of Recovery Act Funds
•	   Improving Grant Administration
•	   Strengthening Contract Administration
•	   Becoming a Model Agency for Human Capital Management
•	   Encouraging Ethical Conduct of Research
•	   Effectively Managing Large Facilities and Instruments

If you have any questions or need additional information, please call
me at 703-292-7100.




                                                                        47
Appendix


           CHALLENGE: Ensuring Proper Stewardship of ARRA
           Funds
           Overview: The American Recovery and Reinvestment Act (ARRA), enacted
           in February 2009 is intended to create and save jobs through investments for
           long-term economic growth. ARRA provided an additional $3 billion for the
           National Science Foundation (NSF) in its three core appropriations accounts:
           Research and Related Activities, Education and Human Resources, and Major
           Research Equipment and Facilities Construction (MREFC). The Act also
           instituted reporting requirements intended to ensure transparency and account-
           ability. The OIG received an additional $2 million to conduct oversight of the
           use of these funds.

           Challenge for the Agency: It will be a challenge for NSF to spend its ARRA
           funds expeditiously while ensuring accountability and that the twin goals of
           reinvestment and recovery are met. We have identified a number of risk areas
           that represent challenges to NSF in spending ARRA funds in accordance
           with the law’s objectives while meeting increased reporting requirements and
           greater transparency. Following are examples of some of these challenges:

           •	   Determining in advance that awards are appropriate for stimulus funding
           •	   Making and monitoring ARRA awards, especially ones made to high-risk
                institutions
           •	   Meeting the law’s requirements for greater transparency by providing all
                required information on the Recovery.gov website
           •	   Promoting timely, complete, and accurate reporting by awardees

           Another major challenge for NSF is the area of job creation and retention.
           While it is clear how NSF will meet the Act’s goal of reinvestment, it is less
           clear how the agency will promote the goal of economic recovery. The agency
           has not fully identified how NSF will address this key goal, and in particular the
           number of jobs created and/or retained in its ARRA-related metrics. While it is
           difficult to measure the economic benefits produced by basic research, stake-
           holders expect NSF to be able to provide information on the number of jobs
           created. Last spring, OIG presented NSF with an assessment of stakeholder
           expectations for meeting its ARRA goals.

           Further, the agency’s allocation of $200 million of ARRA funds in support of
           the Academic Research Infrastructure Program, a program NSF has not been
           involved with for some time, poses a challenge. We believe that this program
           presents the same types of risk to NSF as a newly established program. In
           addition, $400 million of the ARRA funds are for MREFC projects. We have
           consistently identified these large, complex infrastructure projects as more
           challenging for NSF.

           OIG’s Assessment of the Agency’s Progress: NSF has taken important
           steps to address the challenges posed by the increased demands of ARRA.
           For example, NSF quickly developed programs to make awards, established
           methodology and put out implementing policies and procedures that include
           new award terms and conditions specific to ARRA awards. Generally, NSF is
           dealing well with ARRA’s funding and reporting challenges and has stated that
           it will focus attention on risky programs.
     48
                                                            OIG Semiannual Report    September 2009


At the agency’s invitation, the OIG is participating in a number of teams created
to grapple with issues related to ARRA implementation through which we are
able to learn about the requirements associated with ARRA funds, and hear
first-hand about how NSF is administering the funds. Our participation in these
activities enables us to raise issues for NSF’s consideration at an early stage in
the process. In those meetings and in periodic reports to the agency, we have
provided NSF with our assessment of key challenges such as potentially risky
programs and awardees, and the agency has been responsive to the concerns
we have raised.


CHALLENGE: Improving Grant Administration
Overview: Close monitoring and management attention from the pre-award
stage through grant closeout is essential for effective grant management. The
American Recovery and Reinvestment Act increases the need for effective
grant management, as it will require NSF to manage an unprecedented influx
of funds and resulting awards while meeting economic stimulus objectives and
responding to increased reporting requirements .

An effective pre-award framework should include an assessment of financial
risk to help ensure that potential awardees possess the financial capability to
successfully perform under the award. Large dollar and complex awards may
be more difficult to administer and may require more oversight. Pre-award
financial reviews are also particularly important for new awardee institutions
that may lack experience in handling government funds.

An effective post-award framework should integrate oversight of both financial
and programmatic issues to ensure that awardees comply with terms, condi-
tions, and regulations; achieve expected progress toward accomplishing project
goals; and file accurate financial reports as required.

Awardees that pass through federal funds to subrecipients are required to
monitor them by reviewing financial and performance reports, conducting site
visits, and ensuring that subrecipients have adequate financial systems to
properly manage the funds. Adequate controls over subrecipient monitoring
are an important safeguard to ensure funds are spent properly.

NSF also needs to ensure that it takes action on known problems identified by
OIG and Single Audits. NSF has a responsibility to follow up to correct internal
control weaknesses to ensure that corrective actions are taken. Our recent
review found that NSF lacks policies to do this.

Challenge for the Agency: Since 2002, we have recommended that NSF
strengthen its post-award administration policies and practices. Over the past
several years, NSF has improved its monitoring of financial performance, but
refinements are needed to its processes for: documenting site visit reviews,
ensuring cost sharing requirements are met, and approving payments for
grantees known for having prior problems.




                                                                                     49
Appendix


           A continuing challenge for the agency is to improve monitoring of program
           performance. This is particularly important in light of the additional awards
           made with ARRA funding. To integrate the monitoring of both program and
           administrative performance, NSF needs to improve communication between
           staff engaged in program and financial oversight.

           Our audit work continues to document deficiencies in subrecipient oversight.
           Specifically, in four audits completed in March 2009 of non–profit organizations
           with more than $14 million of subawards, we found a consistent pattern of
           inadequate subrecipient oversight. One of the four audits that focused on costs
           claimed by a nonprofit organization that was established to provide cooperative
           research and development opportunities to scientists and engineers in the
           independent states of the former Soviet Union found significant internal control
           weaknesses in the process for overseeing hundreds of foreign subrecipients.
           As a result, there was an increased risk of fraud and of unallowable costs being
           charged to the NSF awards. Without appropriate oversight of subrecipient
           spending, NSF risks paying substantial subaward costs absent adequate
           assurance that these payments are permissible.

           OIG’s Assessment of the Agency’s Progress: NSF has reported that it has
           taken a number of steps during the past year to improve grants administration.
           For example, the agency states that it has assessed the business performance
           of 30 percent of awardees administering 94 percent of NSF funds through
           advanced monitoring, including 30 site visits and 159 desk reviews. In addition,
           NSF has updated its Proposal and Award Policies and Procedures Guide
           and its Proposal and Award Manual. The agency states that it is planning to
           modify: grant conditions to require principal investigators to submit a new type
           of final report on project outcomes; and the research.gov website to include the
           capability of principal investigators to report at the end of the project on project
           outcomes.


           CHALLENGE: Strengthening Contract Administration
           Overview: NSF’s financial statement auditors recommended a number of
           improvements to NSF’s contract monitoring process in the management letter
           for the FY 2008 financial statement audit. The auditors have warned that if the
           problems persist, management cannot ensure the reasonableness and ac-
           curacy of costs incurred on high risk contracts, which amounted to $205 million
           for FY 2008.

           Effective contract administration is particularly important since NSF is in the
           midst of choosing a contractor to provide logistical support for the U.S. Antarctic
           Program over the next 13.5 years. The current contract, which is NSF’s largest
           valued at $1.2 billion over 10 years, was scheduled to expire in March of 2010
           but has been extended for one year.

           Challenge for the Agency: The transition to a new USAP contract will
           severely test NSF’s contract administration practices. The immediate challenge
           is to administer an effective and successful procurement process that results
           in the selection of a contactor that can meet the USAP’s diverse needs while


     50
                                                                              OIG Semiannual Report     September 2009


providing value to the government. The process should assure that: all offerors
receive the same information and opportunities, their proposals are carefully
analyzed and compared, and critical information is verified. The closeout of the
existing USAP contract will also pose a challenge, as NSF must resolve issues
involving the contactor’s accounting practices and subrecipient oversight that
have lingered since 2000-2004, as well as obtain audits of incurred costs for
later contract years. Auditors have identified specific areas needing improve-
ment including the closeout of contracts, and reviews of incurred costs and
contract expenditures.

The long-term challenge for NSF is to continue to strengthen its contract
monitoring efforts once the new USAP contract is executed. In addition, in July
OMB issued new guidance to strengthen and improve acquisition practices
that calls on NSF and other federal agencies to achieve a number of ambitious
goals. The challenges represented by the USAP contract transition, the need
to correct NSF’s existing contact administration deficiencies, and meeting the
heightened expectations of the administration, are formidable and will require
management’s attention for years to come.

OIG’s Assessment of Agency’s Progress: During the past year, NSF
developed and issued the Antarctic Support Contract solicitation and began
evaluating proposals it received. OIG has offered advice to the agency on key
areas of the cost proposals that should be verified through audits, including
indirect and overhead rates and the adequacy of offerors’ business systems
and cost accounting practices.

The agency has advised us that due to a delay in evaluating proposals it plans
to extend the current contract for one year. But NSF needs to obtain an audit
of the contractor’s disclosure statement, as well as the cost proposal for the
extension, to complete the negotiations. The agency will also need audits of
more recent contract costs incurred since 2004 before it can close out the
contract. Meanwhile, a hiring freeze imposed by the agency earlier this year
has prevented the Contracting Office from replacing departing personnel. Re-
ductions in the number of acquisition staff during this critical period are a cause
of concern and may impede NSF’s progress in surmounting these challenges.


CHALLENGE: Becoming a Model Agency for Human
Capital Management
Overview: Workforce planning and other issues such as the use of visiting
scientists or “rotators”, the development of management succession plans,
and delays in the process of recruiting and hiring, have long been identified by
OIG as management challenges. In FY 2008, NSF increased the number of
program officers by 15 percent to 520 to help alleviate workload imbalances.29
But workload pressures increased significantly last February when the agency
received $3 billion in ARRA funds, the bulk of which had to be expended before
fiscal year-end. The disbursement of the ARRA funds for new grants during the


29
   According to the FY 2008 Merit Review Process Report, rotators comprise 59% of the total number of
program officers.


                                                                                                        51
Appendix


           last half of FY 2009 has increased workload by 40 to 50 percent for those staff
           engaged in processing new awards and will result in a commensurate increase
           in post-award workload.

           In addition to these new and longstanding issues, the agency’s response to
           a number of workplace misconduct incidents in 2008 raised questions from
           Congress and others about its personnel policies and practices, as well as
           the effectiveness of its Equal Employment Opportunity Office. After these
           inquiries, the NSF Director told the National Science Board last August that he
           was determined to make the agency a model of workforce management within
           the federal government.

           Challenge for the Agency: To become a model agency, NSF must address
           several deficiencies in its workforce planning process. Primarily, it must devel-
           op an effective process for estimating future workload and for determining the
           appropriate number and skill set of the workforce required to administer it. In
           the past, both program officers and administrative staff have struggled to keep
           pace with their grant-making responsibilities and have not had adequate time to
           focus on post-award monitoring activities. The additional awards funded by the
           Recovery Act in 2009 are likely to exacerbate the situation as they mature over
           the next three years and require more oversight by NSF staff.

           NSF must also define an appropriate role for its temporary professional staff or
           “rotators” that will fully utilize their expertise in science, education, and engi-
           neering while compensating for potential weaknesses in the areas of supervi-
           sion, and the lack of institutional knowledge and long-term organizational
           perspective. The agency should determine what types of positions should
           be reserved for rotators as opposed to federal employees, and if rotators are
           appointed as managers it must ensure that they have the skills to be effective in
           that role.

           Finally, NSF must continue to make progress in the areas of succession plan-
           ning and improving the support it offers to managers engaged in recruiting and
           hiring new employees. A recent analysis of NSF’s workforce indicates that
           39 percent will be eligible to retire in 2011. Between the increasing number of
           agency managers eligible for retirement, and the rotational nature of a large
           segment of its program officer workforce (59%), ensuring that the appropriate
           planning and tools for the replenishment of NSFs program officers and manag-
           ers is critical to the agency’s success.

           OIG’s Assessment of Agency’s Progress: The agency has taken a number
           of steps to improve workforce management, including hiring a permanent
           SES-level director of its EEO office. NSF has also formed teams of employees
           to identify areas for improving employee satisfaction and other areas affecting
           human capital. The announcement of the agency’s goal to become a model of
           human capital management is a positive development, indicating an increased
           commitment on the part of NSF toward improving its human capital manage-
           ment.

           The agency continues to make progress towards improving workforce planning.
           It states that it has taken a number of steps over the past year to address work-
           force planning issues, including evaluating and updating the workforce planning

     52
                                                                                 OIG Semiannual Report          September 2009


systems, and improving its customer ratings for agency recruiting and hiring
services. NSF reports that further efforts in the areas of staffing, management
succession and the use of rotators are pending an upcoming comprehensive
analysis of these issues early next year by OPM. Finally, in its FY 2010 budget,
NSF has requested funds to contract for development of systems requirements
for a workload analysis tool.30


CHALLENGE: Encouraging the Ethical Conduct of
Research
Overview: The opportunities and incentives for scientists to commit research
misconduct or engage in questionable research practices have never been
greater, due to the increasing amount of information stored on the internet, the
development of more powerful search tools, the ubiquity of digital research data
and the ease with which such data can be manipulated, and the availability of
new stimulus-related research funds. In a recent survey of 2,500 scientists by
the Pew Research Center, 11% of those polled indicated that the possibility of
making a lot of money leads many in their specialty to violate ethical principles,
while 26% reported that it leads their colleagues to cut corners on quality.31

Research collaborations between scientists and students from different nations
continue to proliferate. Since there are often differences between the various
science communities concerning their views on research ethics, and the report-
ing and compliance regime to which they are subject, it can often be unclear
to individual researchers (and sometimes even their oversight officials) which
set of rules applies. International organizations such as the OECD’s Global
Science Forum (GSF) recognize the problem and have taken steps to foster a
discussion about these issues and attempt to develop one framework that will
apply in the area of research misconduct.

Challenge for the Agency: NSF’s challenge is to strengthen understanding
and adherence to recognized standards of ethical research conduct by scien-
tists in the U.S. and those who participate in international collaborations. One
step to addressing the first part of the challenge was mandated by the America
COMPETES Act (ACA), which required NSF to ensure that each institution that
applies for NSF funds “describe in its grant proposal a plan to provide appropri-
ate training and oversight in the responsible and ethical conduct of research
to undergraduate students, graduate students, and postdoctoral researchers
participating in the proposed research project.”32

The second part of the challenge pertains to NSF’s responsibility to help lead
international efforts to implement a single framework for the investigation and
resolution of research misconduct allegations made against a participant in
a multinational collaboration. In 2007 and in April 2009, the Global Science
Forum issued reports that provide a basis for research integrity frameworks in
projects involving international partners.33

30
   OIG is currently conducting a review of the rotating director model, and is planning to perform an evalua-
tion of workforce planning issues during the coming year.
31
   “Public Praises Science; Scientists Fault Public, Media”, Pew Research Center for the People and the
Press, July 9, 2009.
32
   42 U.S.C. § 1862o-1.
33
   See http://www.oecd.org/dataoecd/37/17/40188303.pdf and http://www.oecd.org/dataoecd/29/4/42713295.pdf
                                                                                                                53
Appendix


           OIG’s Assessment of Agency’s Progress: During the past year, NSF
           published in the Federal Register its implementation of the ACA requirement,
           incorporated the requirement into its proposal certifications and updated its
           Award & Administration Guide and Grant Proposal Guide. It has made two
           awards to support beta websites that provide resources on ethics education in
           science and engineering awards. With regard to international collaborations,
           NSF states that it will complete a white paper related to the GSF report by the
           end of the year that will specify the actions that it intends to take.



           CHALLENGE: Effectively Managing Large Facilities and
           Instruments
           Overview: In FY 2006, NSF spent more than $1 billion for the operations
           phase of 16 large facilities including the National Center for Atmospheric
           Research and the Network for Earthquake Engineering Simulation. The opera-
           tions phase for large facilities includes the day-to-day work required to support
           and conduct research and education activities and to ensure that the facility is
           operating efficiently and in a cost-effective manner. NSF typically awards five-
           year cooperative agreements to universities or to non-profit organizations to
           operate and maintain these large facilities. Under the cooperative agreements,
           the awardee is responsible for day-to-day operations at the facilities, and NSF
           is responsible for monitoring and overseeing the awardee’s programmatic and
           financial performance. Cooperative agreements should contain clear perfor-
           mance metrics to help ensure fiscal accountability, stewardship of NSF assets,
           and compliance with laws and regulations.

           Challenge for the Agency: Management of its large facilities presents several
           challenges for NSF. Because it lacks an overarching policy to ensure that
           large facility agreements contain terms and conditions to address performance
           evaluation and measurement, it is a challenge for NSF to make difficult funding
           decisions between competing priorities. Only two of the six large facility
           agreements reviewed by the OIG in 2008 included terms and conditions ad-
           dressing the primary components of a robust program evaluation and measure-
           ment system. Given NSF’s $1 billion annual funding for large facilities, all large
           facility agreements should contain performance components. Absent these
           components NSF cannot be assured that the facilities it funds are operating
           effectively and efficiently and achieving intended goals.

           OIG’s Assessment of the Agency’s Progress: NSF agreed with our recom-
           mendations to: strengthen its cooperative agreements by adding authority and
           resources to NSF’s Large Facilities Office, and training NSF staff on the use of
           performance evaluation and measurement in connection with all large facilities.
           In its response to last year’s management challenges letter, NSF reported that it
           has issued a requirement for all operational facilities to have performance mea-
           sures established in the cooperative agreements and reported annually. The
           agency also reported that it conducted its second Large Facilities Workshop
           on Best Practices for awardees and NSF staff. Additionally, NSF stated that it
           revised supplementary materials to the Large Facilities Manual and conducted
           training on the Manual for NSF program staff. Further, NSF has increased the
           number of personnel assigned to the Large Facilities Office.

     54
                                                   OIG Semiannual Report   September 2009


                          Acronyms

AD		      NSF Assistant Director
AIG		     Associate Inspector General
ARRA		    American Recovery and Reinvestment
CAREER	   Faculty Early Career Development Program
CAS		     Cost Accounting Standards
CBA		     Collective Bargaining Agreement
CIGIE		   Council of Inspectors General on Integrity and Efficiency
CISE		    Computer and Information Science and Engineering Directorate
COI		     Conflict of Interest
COV		     Committee of Visitors
DACS		    Division of Acquisition and Cost Support
DCAA		    Defense Contract Audit Agency
DD		      Deputy Director
DGA		     Division of Grants and Agreements
DIAS		    Division of Institution and Award Support
DoD		     Department of Defense
DoE		     Department of Energy
DoJ		     Department of Justice
ECIE		    Executive Council of Integrity and Efficiency
EPSCoR	   Experimental Program to Stimulate Competitive Research
FFRDC	    Federally Funded Research and Development Centers
FISMA		   Federal Information Security Management Act
GAO		     Government Accountability Office
GAS		     Government Auditing Standards
GPRA		    Government Performance and Results Act
HHS		     Department of Health and Human Services
IG 		     Inspector General
MIRWG	    Misconduct in Research Working Group
MREFC	    Major Research Equipment and Facilities Construction
NIH		     National Institute of Health
NSB		     National Science Board
NSF		     National Science Foundation
OEOP		    Office of Equal Opportunity Programs
OIG		     Office of Inspector General
OMB		     Office of Management and Budget
OPP		     Office of Polar Programs
OPM		     Office of Personnel Management
PCIE		    President’s Council on Integrity and Efficiency
PI		      Principal Investigator
PFCRA	    Program Fraud Civil Remedies Act
SBIR		    Small Business Innovation Research
STC 		    Science and Technology Centers
USAP		    United States Antarctic Program




                                                                           55
Appendix


                                  Reporting Requirements
           Under the Inspector General Act, we report to the Congress every six months
           on the following activities:

           Reports issued, significant problems identified, the value of questioned costs
           and recommendations that funds be put to better use, and NSF’s decisions in
           response (or, if none, an explanation of why and a desired timetable for such
           decisions). (See pp. 5, 7, 35)

           Matters referred to prosecutors, and the resulting prosecutions and convictions.
           (See pp. 21, 46)

           Revisions to significant management decisions on previously reported
           recommendations, and significant recommendations for which NSF has not
           completed its response. (See pp. 18, 45)

           OIG disagreement with any significant decision by NSF management. (None)

           Any matter in which the agency unreasonably refused to provide us with infor-
           mation or assistance. (None)




     56
OIG Semiannual Report   September 2009




                        57
Appendix




     58
